APPENDIX A
ORDER denying Petition for Emancipation
12/28/2020

SUPREME COURT OF ARIZONA
In the Matter of

Arizona Supreme Court
No. M-20-0080

)
)
)
)

JOHN C. STUART,
Petitioner.

FILED: 12/28/2020
)

ORDER
John C.

Stuart has

filed an

"Application/Petition for Emanci­

pation Pursuant to the Thirteenth Amendment to the Bill of Rights of
the United States

Constitution,

the

Emancipation Proclamation,

and

Article 4 of the Declaration of Human Rights."

The petition fails to

state a claim upon which relief can be granted.

Therefore,

IT

IS

ORDERED

that

the

petition

and

related

pleadings

dismissed.
DATED this 28th day of December, 2020.

/S/
JAMES P. BEENE
Duty Justice

TO:
John C Stuart, ADOC 287294, Arizona State Prison, Red Rock
Correctional Center

A

are

APPENDIX B
ORDER denying Motion for Reconsideration
01/11/2021

SUPREME COURT OF ARIZONA
In the Matter of
JOHN C. STUART,
Petitioner.

)
)
)
)
)

Arizona Supreme Court
No. M-20-0080

)

FILED: 1/11/2021

)

ORDER
On January 7, 2021,

Petitioner Stuart, Pro Se,

filed "Motion for

Reconsideration or in the Alternative Motion for Finding of Facts and
Conclusions of Law to Complete the Record for Appeal

(Certiorari)."

After consideration,
IT IS ORDERED denying Petitioner's Motion.
DATED this 11th day of January, 2021.

/s/
JAMES P. BEENE
Duty Justice

TO:
John C Stuart, ADOC 287294, Arizona State Prison, Red Rock
Correctional Center
ga

EXHIBIT A
Jury Question #13 with annotations

\x—'v

PILED

^JICHAEl K JEAN’ES. €&*

( <

• '\N\
___________ X:
<ja .?-C "
T. HENNiNGSR, DeoutV

} Ox?Q4-00I

'M A rr Of ARIZONA

v

iAHN CHESTER STi.'ART

l. Please have the foreperson e.-s- r .;:e -rC-. p-msbon f0 f?.v judge us;ng £his fcrn,
ihe nashr thai '••••>:• A\c - kkA.v: "bailiff wii! A;.he lorn: to the Judee
:J!' *
xtorneys ior cnnsick ratios;.
’■■ 1 'K‘ -bulge u-,!; provide a rx porno fix
in '..^inap
QlTSTfON:

/y

—LdjQuJjje,..-CQrx.:hldrr '± a uoi urvWrej
_ a s„. .a .. c,v\^ca £ 7
W*

\cnc

r.c 5ot plea 5&^is/e
u 5..i r\j&tra idtiQns
A,AJCnfie_.

Foreperson = and signature
RFAP Ob'A:

There..j_s
(<AaA-

no

Su ok Of fens*-

K

; ''X
■■■

............. —
M:.

■':

A?.
/ ..X
I

1WIC

duct and where he failed to demonstrate that
of lioiiicd
......„„ 10
standing rule. State v. TBwers (1977) 117 Anz.
220 57i P.2d 1016. Constitutional Law <s=> 769
,
r .
.
Defendant convicted of involuntary manslaughter had no standing t.o complain of aff
ieged unconstitutional vagueness in definition of
involuntai-y manslaughter in A.R.S. § L3-4o6
trepealed; see, now, this section) as unlawful
killing "in the commission of a lawful act which
might' produce deatn in an unlawful mannci
where defendant's conviction did not arise from
that part of statute and where juiy was not:
instructed with such words. State v. Powers
(1977) 1 17 Am. 220, 571 P.2d 1016. Constitu­
tional Law <$= 739

! ing to coroner’s duty to investigate certain j tgi.^
:;
i ■ :
; slaughter as del:med n_ M 3-456 <’
•#.
i
-- .................... .—----- \
; Ndl 6T-26.
■
k_.-.
it' ■'
4. Nature and elements of offense
•§#

2.

Construction and application
Negligent homicide is distinguished fiom
reckless manslaughter in that lor the latter offense, the defendant is aware of the risk, of
death and consciously disregards it, whereas,
for the former offense, he is unaware of the risk.
State ex rel. Thomas v. Duncan- (App. Div.i
2007) 216 Ariz. 260, 165 P.3d 238. Homicide
<£= 708; Homicide «=> 709
Construction given by California courts to
California statute, from which Arizona statute
was adopted and which was in substantially the
sarrie language would, if reasonable, be persuasive. State v. de Montaigu (App. Div.l 1977)
117 Ariz. 322, 572 P.2d 456.
3.

,i
!
i‘

;

r
r
f
t

Construction with other statutes
Legislature presumably knew of § 13-1591
(repealed; see, now, § 13-3981.), relating to
compromise, when il created misdemeanor
manslaughter. State v. Garoutte (1964) 95 Ariz.
234, 388 P.2d 809. Statutes <£= 212.1
Section 13-1591 (repealed; see, now, § 133981), relating to compromise, was applicable
to misdemeanor motor vehicle manslaughter
case State v. Garoutte (1964) 95 Ariz. 234, 388
p.2d 809. Criminal Law «=> 40
Where former § 28-691 relating to negligent
homicide by driver of vehicle, was enacted after
felony statute § 13-456 (repealed; see, now,
this 1 sectton a,uT§ 13-11 (*)“
'i^ol^y

Infliction of serious physical injury is an es­
sential element of the crime of negligent homi­
cide. State v. Harvey (App. Div.l 1998) 193
Ariz. 472, 974 P.2d 451, as amended, review
denied. Homicide
708
Negligent homicide, unlike manslaughter, is
established when person fails to perceive substantial and unjustifiable risk that his conduct
will cause another's death. State v. Nieto (App.
Div.l 1996) 186 Ariz. 449, 924 P.2d 453, review
denied. Homicide <£= 708
"Negligent homicide" is established wheie a
pe^fFails to perceive' the substantial and unjustjfiable risk that his or her conduct will cause
the death of another. State v. Fisher (1984) 141
Ariz 227, 686 P.2d 750, certiorari denied 105
s.Ct. 548! 469 U.S. 1066, 83 L.Ed.2d 436, denial 0f post-conviction relief reversed in part 152
Ar;z nfr 730 P.2d 825, appeal after new trial
176 Ariz.” 69, 859 P.2d 179. Homicide <&= 708
Negligent, homicide, established when a personTails to perceive a substantial and unjustifiarisk ancj when failure to perceive risk is a
$ deviation from standard of care which a
reasonable person would observe; is distinguished from reckless manslaughter in that for
jatter 0ffense# the defendant is aware of the risk
0f death and consciously disregards it, whereas;
for the former offense, the defendant is unaware
Qf the risk. State v. Walton (App. Div.l 1982)
133 Ariz. 282, 650 P.2d 1264. Homicide
708; Homicide «= 709
___ ________
| To constitute involuntary manslaughter,
I homicide must have resulted from defendant s
1 faiiure to exercise due caution and circumspec1 tion> which is equivalent. oL'Lrjimnal^ne^i;
I genee”' oP chApaHe"negligence;' r '
'
ij such that fatal consequence of
“cJS
j! could reasonably have
;; Stambaugh (App.
^
j» 5S9.1L2d 469,.. Homiblde.^.708...... .
__ ___

-manslaughter committed without due caution j
and circumspection, and both statutes required j
substantially the same evidence of criminal iteg- ;
ligence for conviction, former § 28-691 impli- |
edly repealed application of felony statute to j
instances of homicide wherein instrumentality ;
of death was motor vehicle • operated without ;
due caution and circumspection. Stale v. Mori |
(1956) 80 Ariz. 220, 295 P.2d 842. Automobiles j
' .......
I
• <^>316
” as used in § 22—511 |
Phrase "criminal means
(repealed; see, now, §§ 11-593, 11-594), relat-i

Distinction, in § 13-456 (repealed; see, now,
this section) proscribing vehicular manslaughter^ between commission of an unlawful act
wjth gross negligence and commission of an
uniawful act without gross negligence was soiejy (hr purpose of determining appropriate pun
js]irnent and did not represent a legislative in­
tenl to require proof of ordinary negligence
wUh respe{;t to commission of an unlawful act
without gross negligence. State v. Reynolds
(App. Div.2 1973) 19 Ariz.App. 159, 505 P.2d
1050. Automobiles ©=> 344

214

2
(/.
U
fl­
(]■

m
m

ft

,'S|
|g

a
ii

pm 3

m

ll-‘
V-l
^
flp'/y' d

:5pd-;:.:S::
I.
cs

mSiir:3

HR?

S®

k .11

US

c

%
-Ifi

{■

.

IIEw-SP 1.
1

0m'
mm-

■isiwl f.

MM •

|
s ‘||| *- >
|
1
|
T)
j
\ 'M
1

C

C

I
f

iliiiy-:
■Mm--‘L

11teat

i-'"gift'd-

MMk

-I:-

Ipil

■ft

Ml

mm&miik

L

cJHKiaDE

§ 13-1102

■‘'’‘rtssHralft'

Note 7

ce^^^^^^^Klniicide cannot be excusable when it is the
and’;®®S^WWSi'vof an unlawful act. State v. Reynolds
■eal^pHPiMBfiPifnjv ? 1973) 19 Ariz.App. 159, 505 P.2d
P-Attv^^^^^^^llomicide «=» 750 •
•t- •
I ", V,
manslaughter the
must •l^e -resMedlFdi^tHirdefen";^^M|gi;s^iiure
exercise due care and circum?
u:hich.,S ,tht |equ,V?.1Cm
' mT
lie

goo^Sfc?"C ,lCKntf rt P

■ defendant presents a credible argument that his
or her failure to perceive a risk was due to
either voluntaiy intoxication or something else,
negligent homicide would be a lesser included
; offense with respect to the defense that is unre. ,ated to volunta^ int0xicatl0n. State v. Fisher
;
■
Anz.'227, 686 P.2d 750, certiorari
• '
>
S.Ct. 548, 469 U.S. 1066, 83
1 L.Ed.2d 436, denial of post-conviction.relief re-

t'i versed in part 152 Ariz. 116, 730 P.2d 825,

^£si 104 — •' 'V **5 P'2d ;8

i appeal after new trial 176 Ariz. 69,' 859 P.2d
! 179. Indictment And Information <5= 189(8)
-^^^^bluntary manslaughter- as distinguished j ;...^eg[i ^
laUght|*^MW-VOlUnta^'nmanSlfU!I,tert, cwntemPjates | j f€nse5dT"mansfaugTiter7"theT'cckiess'causing^of"
1

led,
"

:rCe"^^te:Tt 1U"“Trin that a person who |
C01llli^^wfcflsjftl9t'idna b'■ * e^'V '-£-vvy
i 1 recklessly causes death of another also acts with 1
Nieto^MHH|ft^2 P.2d 500. Hormc.de
453

662

j | criminal negligence.

r9®fi

State v. Parker <App.

IKlIvoiuntarv manslaughter, as distinguished ':
H|foS'"ydluntai7 manslaughter, contemplates an 1
HfelHommitted unintentionally. State v. Foggy 1
1°* Ariz- 459, 420 P.2d 934, certiorari;
la
fea; .87 SXt. 1386, 386 U.S. 1025, 18 {
'
rehearing denied 87 S.Ct. 2060,1
den. 938, 18 L.Ed.2d 1008. Homicide <S=> j
J,1
'n
‘manslaughter statutes legislature in:r
killing of each human being, under
:ide •S’S^^^^fflSinsiances described in the code, would
vhenfaSej^^^^^^^^itute a separate offense. State v. Miranda
J unji3|®SBB®ffi^3&66) 3 Ariz.App. 550, 416 P.2d 444.

j Div.2 1980) 128 Ariz. 107, 624 P.2d 304, af| firmed in part, vacated in part 128 Ariz. 97, 624
} P.2d 294. Indictment And Information -<®=
1 189(8)
j......
...... ....
..........
6. Felony or misdemeanor
Where jury found defendant guilty of offense
of vehicular manslaughter with gross negligence
and recommended punishment by imprisonment in county jail, trial judge was required to
accept the recommendation and could not designate crime as a felony. State v. de Montaigu
(App. Div.l 1977) 117 Ariz. 322, 572 P.2d 456.

manslaughter is committed inten' 1S‘.-while involuntary manslaughter is com‘ ,I?l;t|S^^^ffliilil:umnteritionally. State v. Douglas (App.
Ariz.App. 178, 407 P.2d 117. Homicide
‘b
662
!S
,.r.
. •
.
l)iv. fftl^^^S^^:^ph;er.e peace officer, in attempting to anest a
omidd^^MlPfent1nnen a
^ 3 Ure T dis?b %™tom°..,;j^^^^^|and killed driver, even though killing was
i * t^^^^^Mattentional, his act being unlawml, offense
"Vs iwl^^^^SftlMpyobmtary manslaughter. Harding v.

Where jury simply finds defendant guilty of
vehicular manslaughter and makes no further
recommendation, vehicular manslaughter could
be characterized as an open-ended offense;
however, when jury goes further and recommends county jail term, crime ceases to be
0pen.end and becomes a misdemeanor. State
v. de Montaigu (App. Div.l 1977) 117 Ariz. 322,
5?2 p 2d 456 Criminal Law S=> 27

agflfej■

«

felftSfe'«=654

j
!
?
^
!
1
>
i
;
j
|

26 Ar
z:'334^2rP. 482. Homi- 11
:ircurpg^^^M»ii55i'7nA'
-----

Crimh‘al Law~885

7. ■ boubie ieonardv

„ .. .

,

,. .

t

. t

.

Double jeopardy did not preclude instruction
j that negligent homicide defendant’s negligence
lCfsyn^^^S^B^^Ahslaughter is involuntary if committed in \ COuld be'established''by evidence that he had
h!?enc®®^^S8^i9trafi(iri of unlawful aci not amounting to ; actcd intentionally, knowingly or recklessly,
an
eic. Wiley v. State (1918) i 9 Ariz. 346, . even though defendant had previously been
A869. Homicide <S=» 659
j found not guilty of first and second-degree mur| , , ff '
: der and manslaughter. State v. Nunez (1991)
offenses
i 167 Ariz. 272, 806 P.2d 861. Double Jeopardy

n,Snsll^^M^frafiy’

j.. «=» 102

.nlaw.f^^^^«|«1se..Oi-n?a??3iaugnter. state v. nsner4
ssionsf|lf^|itliflife4 * Anz\ 22l- 686 P-2d 750, cemoran ;
ce
‘ ^ S.Ct. 548, 469 U.S. 1066
83 ;
>priat«@MWfl|#*&?d. 436> denhil ol post-conviction relief re- ;
«isllf§8^^ ir' Parl 1
. Anz; 1 ,6: 7A() !’.2d 82o
ileglijj^jiyii^|?!l>ea d^Vj new tliid 1,(1 Al i/- 6y<
^'."d .
mlawfulil^Sa»" bidictmem And Information «= 189(8);
V.
^^^^giigent. homicide is not a lesser included
9. 50%^g|g||||l^pgmse of manslaughter where the defendant’s

where record did not contain evidence of
defendant’s alleged trial and acquittal in municj, j court 0f driving while under influence of
jntoxicating iiquor, and defendant did not, after
commencement of superior court prosecution
for manslaughter in driving ol a motor vehicle,
raise question of double jeopardy or object to
introduction of any evidence on question of
intoxication or ask for instructions limiting use

. r

;
j
j
*
!

EXHIBIT B
STATE v. FENDER

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
STATE OF ARIZONA, Appellee,
v.
RICHARD LEE FENDER, Appellant
No. 1 CA-CR19-0586
FILED 10-22-2020
Appeal from the Superior Court in Mohave County
" ■ ■ -No, - S8.015CR201-7006.03The Honorable Billy K. Sipe, Jr., Judge Pro Tempore
AFFIRMED IN PART; VACATED IN PART
COUNSEL
Arizona Attorney General's Office, Phoenix
By Michael O'Toole
Counsel for Appellee
Mohave County Legal Advocate's Office, Kingman
By Jill L. Evans
Counsel for Appellant

tx/s/-B/r

3

STATE v. FENDER
Decision of the Courtappearance bond is to assure a defendant's appearance at die trial or other
hearings." Slate v. Bonds, 201 Ariz. 203, 208, *1 19 (App. 2001). An
appearance bond—and the court's discretionary determination to forfeitall, part, or none of the bond —is a procedure distinct from, a trial verdict or
related sentencing.
n

Pensions and. the Fourteenth Amendment

Finally, Fender alleges the trial judge had an improper
financial interest in the trial's outcome. Specifically, he argues "ALL
Arizona judges x'eceive pecuniary gain from ALL convictions that lead to
imprisonment, through the 'Elected Officials And judges Pension Fund'
which is invested in die 'Private Prisons'" that operate in Arizona. His
argument relies on Turney v. Ohio, in which die United States Supreme
Court held that where a judge personally received a portion of the assessed
court costs, such pecuniary interest disqualified him as impartial. 273 U.S.
510, 535 (1927). We disagree that any alleged pension fund investments in
corporations operating private prisons constitutes a "direct, personal,
substantial pecuniary interest" as to deprive defendants, including Fender,
of due process under the Fourteentii Amendment. See id. at 523. The
relationship between a judge and the financial policies and investmentdecisions of the pension system administrators is "too remote to warrant a
presumption of bias toward conviction in prosecutions before" the judge.
See Ward V. Village of Monroeville, 409 U.S. 57,60-61 (1972) (describing Dugan
v. Ohio, 277 U.S. 61 (1928)).

1f24

25
We have read and considered counsel's brief and Fender's
supplemental brief, and we have fully reviewed die record for reversible
error. See Leon, 104 Ariz. at 300. Save for the double jeopard)'" violation
discussed above, we rind none. So far as die record reveals, counsel
represented Fender at all stages of the proceedings, and the sentence
imposed was witiiin the statutory guidelines. See A.R.S. § 13-3407(A)(7),
(B)(7), (E). We decline to order any further briefing.
Upon the filing of diis decision, defense counsel shall inform
Fender of the status of the appeal and of his future options. Counsel has no
furdier obligations unless, on review, counsel finds an issue appropriate for
submission to the Arizona Supreme Court by petition for review. See Slate
v. Shattuck, 140 Ariz. 582, 584-85 (1984). Fender shall have thirty days from
the date of this decision to proceed, if he desires, with an in propria persona
motion for reconsideration or petition for review.

1f26

9

EXHIBIT C
HALL v. E.O.R.P.

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1/23/2021

383 P.3d 1107 (2016)
241 Ariz. 33

The Honorable Philip HALL et al., Plaintiffs/Appellees/Cross-Appellants,
v.
ELECTED OFFICIALS' RETIREMENT PLAN et al., Defendants/Appellants/Cross-Appellees,
State of Arizona, Intervenor-Defendant/Appellant/Cross-Appellee.
No. CV-15-0180-T/AP.
Supreme Court of Arizona.
Filed November 10, 2016.
Appeal from the Superior Court in Maricopa County, The Honorable Douglas L. Rayes, Judge (retired), The Honorable
Randall H. Warner, Judge, No. CV2011-021234.
AFFIRMED IN PART AND REVERSED IN PART.
Ron Kilgard (argued), Alison E. Chase, Keller Rohrback, L.L.P., Phoenix, Attorneys for Philip Hall and Jon W. Thompson et
al.
Bennett Evan Cooper, Steptoe & Johnson, LLP, Phoenix, Attorney for Elected Officials' Retirement Plan and the Members
of the Board of Trustees of the Public Safety Personnel Retirement System
Mark Bmovich, Arizona Attorney General, Charles A. Grube (argued), Senior Agency Counsel, Phoenix, Attorneys for State
of Arizona
Colin F. Campbell, Osborn Maledon, PA, Phoenix; and Robert D. Klausner, Adam P. Levinson, Klausner Kaufman Jensen &
Levinson, Plantation, FL, Attorneys for Amicus Curiae National Conference on Public Employee Retirement Systems
1110 *1110 JUDGE HOWEt!l authored the opinion of the Court, in which JUDGE BUTLER1-1 joined, JUDGE CATTANI1-1 joined
and specially concurred, and JUSTICE BOLICK and JUDGE TREBESCH1-1 dissented in part and concurred in the judgment
in part.
1109 *1109 JUDGE HOWE, opinion of the Court:
1f1 In 2011, the Arizona Legislature enacted Senate Bill 1609, which made certain changes to the Elected Officials'
Retirement Plan. The Bill changed the formula for calculating future benefit increases for retired Plan members and
increased the amount that employed Plan members must contribute toward their pensions. Retired members of the Plan
challenged the provision changing the formula for calculating future benefit increases. They argued that the change violated
the Pension Clause of the Arizona Constitution, article 29, section 1, which provides that "public system retirement benefits
shall not be diminished or impaired."1^1 We agreed, holding that this provision was unconstitutional as applied to the Plan's
retired members. See Fields v. Elected Officials' Ret. Plan. 234 Ariz. 214. 320 P.3d 1160 (20141.
ff2 Employed members of the Plan also challenged the Bill. First, they argued that the unilateral changes to the benefit
increases formula and to the amount they were required to contribute toward their pensions violated the Pension Clause for
the reasons set forth in Fields. Second, relying on our long-standing decision in Yeazell v. Copins. 98 Ariz. 109. 402 P.2d’
541 f1965L they argued that because their pensions were part of their employment contracts that vested when they began
employment, the Legislature could not unilaterally change the terms of their pensions to their detriment. The trial court
granted the employed members summary judgment, invalidating the provisions at issue. The court denied the members'
request for attorneys' fees and prejudgment interest, however. The court also denied the members' request to have the
judgment run against the State, which had intervened in the case. EORP and the State appealed and the members crossappealed.

'*/)'>hit- d
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

1/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
113 Upon transfer from the court of appeals, we affirm the granting of summary judgment to the employed Plan members. As
we held in Fields, the Bill's change to the benefit increases formula violates the Pension Clause because it "diminishes and
impairs” the employed members' pension benefits. The Bill's changes to the benefit increases formula and the contribution
rate also violate our holding in Yeazell because the Legislature cannot unilaterally change the terms of the members'
pension contracts once their rights to those terms have vested at the beginning of the members' employment. Contrary to
the trial court's ruling, however, we find that the employed members are entitled to attorneys' fees and prejudgment interest
and that the judgment must run against the State as well as the Plan.

I. FACTS AND PROCEDURAL HISTORY
114 In 1985, the Legislature established the Plan to provide pension benefits for elected officials, including judges. A.R.S. §§

1111

38-801(15), -802, -804. The Plan has four funding sources: employer contributions, employee contributions, court filing fees,
and investment proceeds. A.R.S. § 38-810. The employee contribution rate was set by statute initially at 6%, with the
employer being responsible for contributing the remaining amount necessary to fund a defined benefit upon retirement. See
A.R.S. § 38-810(A) (1985). In 1987, A.R.S. § 38-810(A) was amended to increase the employees’ contribution to 7%. See
1987 Ariz. Legis. Serv., ch. *1111 146, §4, codified at A.R.S. § 38-810(A) (1987).
115 During the 1990s, the Plan generated investment returns that far exceeded the actuarially assumed rate of return. See
PSPRS Plan's Funding Status Report with Options for Improving Funding and Reducing Required Contributions, at 2
(2010). During the same period, however, the Plan's financial health was being "seriously compromised" because the Plan
was gradually concentrating its investments in securities of high technology and telecommunications companies. Id. In
March 2000, the prices of technology and telecommunications securities began to "decline rapidly." Id. This made the Plan
vulnerable to major financial shocks in 2000, 2008, and 2009. By fiscal year 2011, the Plan's funding ratio — the actuarial
value of the Plan's assets divided by its actuarial accrued liabilities — was 62.1%, a drop from 121% in 1998 and 101.9% in
1985. Accordingly, the State’s contribution level necessarily increased, while the employee contribution rate remained
constant, as set by statute.
1J6 In 2011, attempting to address continued rising costs, the Legislature enacted the Bill, making several unilateral changes
to the Plan to be applied retroactively from June 30, 2011. See 2011 Ariz. Legis. Serv., ch. 357. One change the Bill made
was to the statutory formula for calculating permanent benefit increases under A.R.S. § 38-818. The Bill amended A.R.S. §
38-818.01 to prohibit the transfer of any investment earnings that exceed the rate of return to the reserve fund and changed
the formula used to calculate the permanent benefit increases, increasing the rate of return necessary to trigger a benefit
increase. See A.R.S. § 38-818.01(B).
H7 We resolved whether the Bill's change to the statutory formula for calculating permanent benefit increases was
constitutional with respect to retired members in Fields. 234 Ariz. at 221 IT 34. 320 P.3d at 1167. We held that the formula
was a "benefit" for purposes of the Pension Clause and that the Bill's change to the formula violated the clause because it
diminished and impaired the retired members' retirement benefits. Id. at 220-21 U1J 29, 34, 320 P.3d at 1166-67. Because
the Bill retroactively prevented the transfer of funds to the Plan's reserve, the Plan could not fund expected benefit
increases, and retired members' benefit increases consequently were reduced or eliminated in 2011,2012, and 2013. Id. at
221 U 35, 320 P 3d at 1167. The Bill also made it less likely that retired members would receive future benefits increases
because of the raised rate of return required to fund an increase. Id. at H 36, 320 P.3d at 1167.
118 The Bill made another change that was not at issue in Fields, but is here. The Bill amended the employee contribution
rate structure by increasing the rate to 10% for fiscal year 2011-2012 and to 11.5% for fiscal year 2012-2013. A.R.S. § 38810(F)(1 )-(3) (2011). It also set the rate for fiscal year 2013-2014 and each fiscal year thereafter to the lesser of 13% of the
member's gross salary or 33.3% of the sum of the member's contribution rate from the preceding fiscal year and the normal
cost plus the actuarially-determined amount required to amortize the employer's unfunded accrued liability. A.R.S. § 38810(F)(4) (2011).
1j9 In November 2011, Judges Philip Hall — who has since retired — and Jon W. Thompson, on behalf of themselves and
as representatives of a class of employed Plan members and beneficiaries as of July 20, 2011, the Bill's effective date
(collectively, "Class Members"), sued the Plan and the Board of Trustees of the Public Safety Personnel Retirement System
(collectively, "EORP"). The Class Members alleged that the Bill violated Yeazell, the Pension and Judicial Salary Clauses of
the Arizona Constitution, and the Contract Clauses of the Arizona and United States Constitutions. The State intervened to

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

2/19

1/23/2021

Hall v. ELECTED OFFICIALS’RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
defend the Bill. After the State intervened, the Class Members notified the trial court and the parties that they would seek
relief, including attorneys' fees, expenses, and taxable costs, not only from EORP but also from the State.

1110 After intervening litigation, the parties each moved for summary judgment. The Class Members maintained — as
relevant here — that the Bill violated Yeazell by unilaterally modifying their interests in their pensions, which had vested at
1112 the outset of their employment with the State, and violated the *1112 Pension Clause by diminishing their entitled benefits.
EORP and the State responded that the Class Members' rights had not yet vested and therefore the Legislature could
modify the pension plan as it saw fit. EORP and the State noted that in 2000, the Legislature had enacted A.R.S. § 38SI 0.02 ("the vesting statute"), providing that EORP benefits vest at the time the employee applies for benefits or retires.
EORP and the State argued that because the statute applies retroactively, it has become part of the Class Members'
employment contracts with the State, and accordingly, their rights do not vest until they retire.
1J11 The trial court granted the Class Members' motion for summary judgment and denied EORP's and the State's cross­
motions for summary judgment. The court held that the Pension Clause protected the benefit increases formula and the 7%
prior contribution rate because they constituted "benefits" that were always part of the members' contractual relationship
with the State. The court rejected EORP's argument that the vesting statute preempted the members’ contractual rights and
their rights under the Pension Clause. The court concluded that the statute applies only to "ordinary" vesting, meaning that
a member has no right to receive retirement benefits until the member fulfills specific conditions and retires. The court thus
granted the Class Members the relief they sought.
1J12 The parties then asked for a stay pending our decision in Fields, which the trial court granted. After considering the
effect of Fields, the court denied the Class Members' request for attorneys' fees under A.R.S. § 12-341.01 because it
concluded that the action arose out of constitutional and statutory — not contractual — obligations. The court also denied
the Class Members' request for prejudgment interest because it found that EORP was not unjustly enriched and should not
be charged interest on money it legally could not pay. The court further denied the Class Members' request that relief run
against the State because it found that the State had intervened only to defend the Bill's constitutionality and the Class
Members' notice seeking relief against EORP and the State was insufficient to assert claims against the State.
IP 3 EORP and the State timely appealed the summary judgment in the Class Members' favor, and the Class Members
timely cross-appealed the judgment denying attorneys' fees, prejudgment interest, and relief against the State. We granted
the parties' joint petition to transfer the case under Arizona Rule of Civil Appellate Procedure 19(a). The funding of public '
pensions raises issues of statewide importance, and we have jurisdiction pursuant to article 6, section 5(3) of the Arizona
Constitution.

II. DISCUSSION
ISSUES ON APPEAL
1J14 EORP and the State argue that the trial court erred by finding that the Bill violates the Pension Clause and Yeazell
We review de novo the constitutionality of statutes and, if possible, construe them to uphold their constitutionality. State v.
Glassel. 211 Ariz. 33. 51 1165.116 P.3d 1193. 1211 (20051. We presume that a statute is constitutional, and the "party
asserting its unconstitutionality bears the burden of overcoming the presumption."131 Eastin v. Broomfield. 116 Ariz. 576.
1113 580. 570 P.2d 744. 748 (19771. As discussed below, we hold that (1) the Bill's *1113 change to the benefit increases formula
provision violates the Pension Clause by diminishing and impairing a benefit to which the Class Members are entitled and
(2) its changes to the benefit increases formula and the contribution rate provisions are unconstitutional under Yeazell
because it unilaterally modified the Class Members' employment contracts with the State to the Class Members' detriment.

A. The Pension Clause
1f15 EORP and the State first argue that the trial court erred because the benefit increases formula and the prior
contribution rate are not "benefits" and therefore not protected by the Pension Clause. Regarding the benefit increases
formula, this Court concluded in Fields that permanent benefit increases and the benefit increases formula were "benefits"
as used in the Pension Clause. See 234 Ariz. at 219, 2201WT 23. 26. 320 P.3d at 1165.1168. The reasoning in Fields
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+offlcials%27+retirement+plan&hl=en&as_sdt=806

3/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
applies with equal force to the Class Members because the Bill's change to A.R.S. § 38-818's formula diminishes and
34-36, 320 P.3d at
impairs the Class Members' retirement benefits just as it does for retired members. See id. at 221-22
1167-68. The Bill's amendment regarding the benefit increases formula therefore violates article 29, section 1(C), of the
Arizona Constitution. Regarding the prior contribution rate, however, because we hold that the prior contribution rate is
protected under Yeazell, see infra § B, we need not decide whether it is also protected under the Pension Clause. See
Three Affiliated Tribes of Fort Berthold Reservation v. Wold Ena'q. PC.. 467 U.S. 138. 157. 104 S.Ct. 2267. 81 L.Ed.Pd 113
.(1984) ("It is a fundamental rule of judicial restraint... that this Court will not reach constitutional questions in advance of the
necessity of deciding them.").

B. A Binding Contractual Relationship
1. Yeazell v. Copins
1J16 EORP and the State also argue that the trial court erred in applying Yeazell because “Yeazell enshrined the vesting
statute as part of the [member's employment] contract, authorizing the Legislature as a matter of the express contract to
make reasonable prospective changes like adjusting the contribution rate." Consequently, they argue, Yeazell does not
"apply constitutional protections for pension rights" and also does not affect whether the Pension Clause protects the benefit
increases formula and the prior contribution rate. The Class Members counter that the Bill violates Yeazell because it seeks
to unilaterally and retroactively modify their pension terms as provided in their employment contracts when they began
services.
1117 Yeazell established that the State's promise to pay retirement benefits is part of its contract with the employee. See 98
Ariz. at 113-17. 402 P.2d at 544-47. By accepting a job and continuing to work, the employee has accepted the State's offer
of retirement benefits, and the State may not impair or abrogate the terms of that contract without obtaining the employee's
consent. Id. Yeazell involved a Tucson police officer's appeal of a local board's decision setting his pension benefits based
on a 1952 amendment to the pension statute in effect at the time of his retirement, rather than on the statute in effect when
he was hired in 1937. Id. at 111, 402 P.2d at 542. Yeazell argued that the 1937 statute, requiring him to contribute 2% of his
salary and granting him a monthly pension equal to one-half of his average monthly compensation for one year immediately
before his retirement date, was the applicable law from which to determine his retirement benefits — not the 1952 statute.
Id. His benefit under the 1937 statute would have been $7.21 more per month than his benefit under the 1952 statute. Id.
1118 The issue in Yeazell was whether the Legislature could unilaterally change statutorily-created retirement benefits that
were part of the terms of an employee's employment contract when the employee began service. See id. at 111-12, 402

1114

P.2d at 542-43. The majority rule in the United States at the time was that pensions — characterized as "gratuities” granted
at the sovereign's benevolent will — could be modified because the employees had no vested right to them. Id. at 112, 402
P.2d at 543. Thus, pension plans could be amended or changed as a legislature *1114 saw fit. Id. Yeazell recognized,
however, that treating retirement benefits as "gratuities" posed a problem in Arizona because of the state's Gift Clause, id.
at 112, 402 P.2d at 543, which, as relevant here, prohibits state entities from giving or lending its credit "in the aid of, or
mak[ing] any donation or grant, by subsidy or otherwise" to any individual, Ariz. Const, art. 9, § 7.
1J19 Yeazell acknowledged that under the Gift Clause, "[t]he state may not give away public property or funds; it must
receive a quid pro quo which, simply stated, means that it can enter into contracts for goods, materials, property and
services." 98 Ariz. at 112. 402 P.2d at 543. Thus, to uphold Arizona retirement plans under the Arizona Constitution, this
Court concluded that pensions were not gratuities, but were, in the nature of contracts, viewed as deferred compensation
for services rendered. Id. at 113-15, 402 P.2d at 543-45. We reasoned that a pension is a gratuity only when it is granted for
services previously rendered, but when the services are rendered under a pension statute, "the pension provisions become
a part of the contemplated compensation for those services, and so in a sense a part of the contract of employment itself."
Id. at 113, 402 P.2d at 544; see also Proksa v. Ariz. State Sch. for the Deaf & the Blind. 205 Ariz. 627. 631 IT 21. 74 P.3d
939,.943 (2003) ("Put differently, in the retirement benefits area, given the Gift Clause of our constitution, this court
effectively found an ’adequate expression of an actual intent of the State to bind itself,' because any finding to the contrary
would render the statutes unconstitutional.") (citation omitted).
1120 Based on Yeazell and its Gift Clause underpinnings, the law in Arizona has been clear since 1965 that public
employees are contractually entitled to the retirement benefits specified in their initial employment contract. See, e.g.,

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

4/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
Proksa. 205 Ariz. at 630 H 16. 74 P.3d at 942: Norton v. Ariz. Deo't of Pub. Safety Local Ret. Bd.. 150 Ariz. 303. 723 P.2d
652 (19861: Thurston v. Judges' Ret. Plan. 179 Ariz. 49. 876 P.2d 545 (19941. This protected relationship prevents the
Legislature from changing the employee's pension terms at will after the terms have vested, see Yeazell. 98 Ariz. at 115-16.
402 P.2d at 545-46. and provides public employees reasonable expectations that their retirement benefits are protected by
the law of contracts, see id. at 117, 402 P.2d at 546 (holding that a public employee "ha[s] the right to rely on the terms of
the legislative enactment of the [pension plan] as it existed at the time he entered the service,” and that "subsequent
legislation may not be arbitrarily applied retroactively to impair the contract"). The parties may subsequently agree to modify
the contract, of course, but the State may not unilaterally change the contractual terms unless the change benefits the
employee. See Thurston. 179 Ariz. at 51. 876 P.2d at 547 (recognizing that "when the amendment [to retirement benefits] is
beneficial to the employee or survivors, it automatically becomes part of the contract by reason of the presumption of
acceptance"). Under that circumstance, the employee is deemed to have ratified the beneficial change, which becomes part
of the employment contract. Id.
TJ21 For Yeazell, we concluded that the Legislature had unilaterally amended the 1937 statute, which had become a part of
his employment contract — a contract that included the 2% contribution rate and a pension calculation based on his last
year's earnings. Tucson therefore could not retroactively vary the pension terms without Yeazell's consent. Yeazell. 98 Ariz.
at 116. 402 P.2d at 546. We explained that although an employee may not qualify to receive his pension benefits until he
has performed the necessary condition — completion of the requisite years of service — this did not mean that from the
moment Yeazell entered service as a Tucson police officer, a firm and binding contract did not exist between him and the
City of Tucson. Id. at 114, 402 P.2d at 544.
1J22 Although acknowledging that Yeazell established a contractual relationship between the State and public employees
regarding the employees' pensions, EORP and the State nonetheless assert that Yeazell provides only that "the employees'
contractual relationship vested at the time they began services [and] does not automatically mean that specific benefits

1115 vested at that time, without regard to the contemporaneous *1115 terms of the contract." But the specific benefits — that is,
the terms of the legislative enactment relating to the employees' pensions as they existed when the employees began their
services — are exactly the type of benefits Yeazell protects:
The legislature amended the 1937 statute which was a part of appellant's contract of employment with the
City of Tucson. Tucson now attempts to apply the changes retroactively to vary the terms of its contract with
appellant. We hold the changes, if applied to appellant without his assent, would constitute an alteration, a
modification of his contract. This Tucson may not do.
Id. at 116, 402 P.2d at 546. Yeazell thus protects the specific terms of a public pension contract from unilateral retroactive
alteration. Even the dissent in Yeazell recognized this as the Court's holding. See id. at 118, 402 P.2d at 547 (Udall, J.,
dissenting) (stating that the majority's holding was based on the "erroneous premise that there was created upon
employment an absolute binding 'contract' to a specific pension," which meant that the majority was holding that "the
legislature, by subsequent enactment, can modify the original pension terms only if the employee consents").
1J23 The Bill’s changes to the Class Members’ pension contracts are consequently invalid under Yeazell. When the Class
Members were elected or appointed as judges, they entered a contractual relationship with the State regarding the public
retirement system of which they became members. Their retirement benefits were a valuable part of the consideration the
State offered upon which the Class Members relied when accepting employment. See Fields. 234 Ariz. at 220 IT 27. 320
P.3d at 1166 ("As in Yeazell, Fields has a right in the existing formula by which his benefits are calculated as of the time he
began employment and any beneficial modifications made during the course of his employment."). Under their contracts,
the Class Members received retirement benefits as terms of their contracts for which they agreed to share the cost with their
employers. Thus, an increase in the Class Members' proportionate share of the contribution rate above 7% and the change
in the statutory formula granting permanent benefit increases without the Class Members' consent are breaches of that
contract and infringe upon the Class Members' contractual relationship with the State. See Thurston. 179 Ariz. at 52. 876
P.2d at 548 ("Where the modification is detrimental to the employee, it may not be applied absent the employee's express
acceptance of the modification because it interferes with the employee’s contractual rights."). By including in its scope Class
Members who were Plan members at the time of enactment, the Bill retroactively, unilaterally, and substantially changed the
contract terms that the parties previously agreed to. This violates Yeazell.
fl24 EORP and the dissent both argue that this is not the end of the analysis. They note that Yeazell commented that if a
governmental entity shows that its pension plan is actuarially unsound, "the law governing mutual mistakes of fact" applies.
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

5/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
See 98 Ariz. at 116. 402 P.2d at 546. They interpret this comment to mean that if EORP and the State could show that the
parties to the Plan made a mistake about the Plan's financial viability, the Bill's retroactive changes would be permissible
modifications of the Plan under Yeazell. But EORP and the dissent over-read Yeazeirs comment. Although this Court
indeed said that the law of mistakes of fact applied to a pension plan if it was actuarially unsound, we expressly and
carefully declined to address the consequences of such an application: "We do not, however, mean to imply what rights or
remedies might be available to either party in a situation where it is established that a retirement plan is actuarially unsound.
This is a matter beyond the issues of the present litigation." Id. at 117, 402 P.2d at 546.

1J25 This Court's reticence was appropriate. While the defense of mutual mistake of fact applies in any contract dispute,
EORP and the State are unable to prove that defense as a matter of law. That defense requires that the party seeking to
void a contract prove that (1) the parties made a mistake about a basic assumption on which they made the contract, (2) the
1116 mistake had a material effect on the exchange of performances, *1116 and (3) the party seeking avoidance does not bear
the risk of the mistake. Restatement (Second) of Contracts § 152(1) (1981); see also Renner v. Kehl. 150 Ariz. 94. 97. 722
P.2d 262. 265 (19861 (applying § 152 in resolving claim of mutual mistake of fact). EORP and the State cannot prove two of
these elements.
1J26 First, EORP and the State cannot show that the parties made a mistake about a basic assumption of the Plan. They
claim (and the dissent accepts, see infra
73,104) that the mistake was the parties' shared assumption that the Plan was
actuarially sound, meaning that the parties mistakenly believed that the Plan's investment returns would be sufficient to
maintain the Plan's actuarial soundness without changing the benefit increases formula or the employee contribution rate.
But disappointment about anticipated investment returns does not qualify as a mistake. See Restatement (Second) of
Contracts § 152 cmt. b (noting that "market conditions and the financial situation of the parties are ordinarily not such
assumptions," and "mistakes as to market conditions or financial ability do not justify avoidance under the rules governing
mistake").^ Moreover, the Plan's actuarial soundness is within the Legislature's control. The Legislature is responsible for
setting the amounts of the employer contributions and court filing fees, see A.R.S. § 38-810(B)-(D), and the Legislature may
not "reduce the amount of the contributions to the fund if thereby the soundness of the fund is jeopardized," Yeazell. 98 Ariz.
at 116.402 P.2d at 546. If the Plan is underfunded because of inadequate investment returns, the State may increase
employer contributions and filing fees.
H27 Second, even if unanticipated reductions in investment returns could qualify as a mistake, EORP and the State cannot
show that the State did not bear the risk that this mistake might occur. The Legislature designed the Plan so that the State
accepted the risk of variable investment returns. When investment returns are high, the State's funding obligation through
employer contributions is reduced or eliminated, as happened from 1998 to 2001. But when investment returns are low, the
State's funding obligation is necessarily increased. In either situation, however, the Class Members' contribution rate
remains fixed. Thus, the Class Members are not permitted to obtain any cost savings from higher investment returns, but
they likewise are not required to pay more because of lower investment returns. The reward and risk of investment returns
falls on the State. This is simply the nature of defined benefit plans. See Hughes Aircraft Co. v. Jacobson. 525 U.S. 432.
439,119 S.Ct. 755.142 L.Ed.2d 881 (1999) (stating that in a defined benefit plan "the employer typically bears the entire
investment risk" and "must cover any underfunding as the result of a shortfall that may occur from the plan's investments").
Because the State bears the risk of the claimed mistake, the State cannot rely on the defense of mutual mistake of fact to
justify changes to the PlanJ-1
1117

*1117 fl28 The dissent also maintains that the Bill's changes to the Plan may be upheld under the Contract Clauses of the
United States and Arizona Constitutions. U.S. Const, art. 1, § 10; Ariz. Const, art. 2, § 25. See infra 107. As we have
explained, however, the Bill's unilateral and retroactive changes to the vested terms of the Plan violate Yeazell and the Gift
Clause. See supra at
19-23. Consequently, analyzing whether the Bill would pass review under the Contract Clauses
were it not for Yeazell and the Gift Clause is unnecessary and violates the principle of judicial restraint. See Superintendent.
Mass. Corr. Inst, v. Hill. 472 U.S. 445. 453.105 S.Ct. 2768. 86 L.Ed.2d 356 (19851 (stating that judicial restraint requires
"avoid[ing] unnecessary resolution of constitutional issues").
fl29 The dissent's substantive concerns about our holding are, respectfully, not well taken. The dissent, however, raises one
other concern that merits discussion. The dissent discusses at great length the perilous state of the Plan and this Court's
need to defer to the Legislature's policy choices in making the Plan solvent, see infra
58, 64-66, 108, effectively asking
this Court to get out of the way and let the Legislature fix the problem. This argument has been raised in other cases
involving judicial pension reform, when state legislatures have run afoul of state constitutional provisions that preclude

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

6/19

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1/23/2021

retroactive changes to judicial pensions. See In re Pension Reform Litia.. 392 Ill-Dec. 1. 32 N.E.3d 1.19-26 (2015):
DnPascale v. State. 211 N.J. 40. 47 A.3d 690. 693, 704-05 (2012).
fl30 But this is not a matter of refusing to defer to the Legislature on an issue of public policy. It is a matter of requiring the
Legislature to follow the Arizona Constitution in setting that policy. We recognize that the financial soundness of public
pension systems is a matter of great public importance. We acknowledge that devising measures to guarantee the Plan’s
financial stability is difficult and fraught with unpleasant policy choices. But whatever measures the Legislature enacts to
address the problem still must comport with the Arizona Constitution. See In re Pension Reform Litia.. 32 N.E.3d at 19
(stating that "[njeither the legislature nor any executive or judicial officer may disregard the provisions of the constitution
even in case of a great emergency") (citation omitted); DePascale. 47 A.3d at 704 (noting that a legislature has the right to
implement its policy choices in dealing with critical issues but that those choices "must be made within a constitutional
framework"). In examining the Bill’s constitutionality, we are not meddling in the Legislature's policy choices. We are fulfilling
our duty to ensure that the Arizona’s constitutional framework is respected and observed in making those choices. See Pool
v. Superior Court. 139 Ariz. 98. 108. 677 P.2d 261.271 119841 (noting that interpreting the state constitution is this Court’s
responsibility). The provisions of the Bill at issue here are contrary to Arizona's constitutional framework and consequently
invalid.

2. The Vesting Statute
1J31 EORP and the State further assert that although Yeazell established a contractual relationship between the State and
its employees regarding pensions, the vesting statute, enacted in 2000, is part of the employment contract for any employee
hired after that date and allows the Legislature to modify the pension terms for members before they retire. The vesting
statute provides:
A. Because the plan as enacted at a particular time is a unique amalgam of rights and obligations having a
1118

critical impact on the actuarial integrity of the plan, the legislature intends that the plan as enacted at a
particular time be construed and applied as a coherent whole and without reference *1118 to any other
provision of the plan in effect at a different time.
B. The plan was established in order to provide a uniform, consistent and equitable statewide program for
those eligible elected officials as defined by the plan. A member of the plan does not have a vested right to
benefits under the plan until the member files an application for benefits and is found eligible for those
benefits. An eligible claimant’s right to benefits vests on the date of the member's application for those
benefits or the member’s last day of employment under the plan, whichever occurs first.
A.R.S. § 38-810.02. This Court has previously stated that rights legally vest "when the right to enjoyment, present or
prospective, has become the property of some particular person or persons as a present interest." Hall v. A.N.R. Freight
Svs.. Inc.. 149 Ariz. 130.140. 717 P.2d 434. 444 (19861: Thurston. 179 Ariz. at 50-51. 876 P.2d at 546-47. "A vested
property right is a right which is actually assertable as a legal cause of action or defense or is so substantially relied upon
that retroactive divestiture would be manifestly unjust." Aranda v. Indus. Comm'n of Ariz.. 198 Ariz, 467. 471 1118. 11 P.3d
1006. 1010 (20001 (internal quotation marks and citation omitted). Thus, once substantive rights have vested, they cannot
be impaired. Hall. 149 Ariz. at 140. 717 P.2d at 444. And rights that are legally vested differ from rights that are contingently
vested, that is, ones that only "come into existence on an event or condition which may not happen or be performed until
such other event may prevent their vesting." Thurston. 179 Ariz. at 50. 876 P.2d at 546: see also Fund Manager. Pub.
Safety Pers. Ret. Svs. v. Phx. Police Den't Pub. Safety Pers. Ret. Svs. Bd.. 151 Ariz. 487. 490. 728 P.2d 1237. 1240 (Apr,
19861 (listing employment rights that do not vest until the "condition” of service is satisfied, including accidental disability
pension, unearned annual leave, vacation credits, and sick leave).
1J32 EORP and the State argue that the term "vesting” as used in the statute refers to legal vesting and operates to permit a
unilateral change to an employment contract. But if we were to accept their position, the vesting statute would alter earlier
established substantive rights to particular retirement benefits, violating Yeazell. Thus, the vesting statute is constitutional
only if it refers to contingent vesting. See Jones v. Sterling. 210 Ariz. 308. 314-15 H 27. 110 P.3d 1271. 1277-78 (20051
(providing that when we can avoid constitutional doubt by interpreting a statute in a manner that does no violence to its text,
we will adopt that interpretation); Kotterman v. Killian. 193 Ariz. 273. 2841131.972 P.2d 606. 617 (19991 (”[W]e resolve all
uncertainties [regarding a statute] in favor of constitutionality."). Our interpretation preserves the statute's constitutionality

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

7/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
because it does not affect the earlier established substantive right to particular retirement benefits. See In re Shane B.. 198
Ariz. 85. 87II8. 7 P.3d 94. 96 (20001 (providing that an exception to the general prohibition on retroactive application of
statutes is that "a statute does not have impermissible retroactive effect if it is merely procedural and does not affect an
earlier established substantive right”).
1J33 Consequently, under Yeazell and the vesting statute, a public employee's interest in a retirement benefit or pension
becomes a right or entitlement at the outset of employment, but the right to begin collecting pension benefits is contingent
upon completing the requirements for retirement eligibility. See Fields. 234 Ariz. at 221 IT 31. 320 P.3d at 1167 (providing
that although the right to receive a pension "vestfs] upon acceptance of employment," the pension is "subject to conditions
precedent, such as completing the term of employment"); Krucker v. Goddard. 99 Ariz. 227. 230. 408 P.2d 20, 22 (19651
(providing that a plan member's right to withdraw contributions vested because he "had fulfilled every condition precedent to
having his contributions returned"); Cross v. Elected Officials Ret. Plan. 234 Ariz. 595. 600 IT 12. 325 P.3d 1001, 1006 (App.

20141 ("When the Plan accepts a member's application for retirement, pension rights 'vest' in that only then may the
member begin to receive the benefits."). Consequently, because the Class Members have a binding contract under Yeazell
and because the employees and the State have not agreed to modify that contract, the vesting statute, by itself, does not
1119 permit the *1119 Legislature to unilaterally change the terms of that contract to the employees' detriment. Accordingly, the
Bill's changes to the benefit increases formula and the contribution rate provisions violate Yeazell by unilaterally modifying
the Class Members' contracts with the State.

ISSUES ON CROSS APPEAL
A. Attorneys' Fees
1J34 On cross-appeal, the Class Members first argue that they are entitled to attorneys' fees incurred before the trial court
under A.R.S. § 12-341.01 because the action arose out of contract. EORP counters that A.R.S. § 12-341.01 is inapplicable
because the action arose from constitutional or statutory obligations, not contractual obligations, even though the members'
employment contracts were implicated. We review de novo the applicability of A.R.S. § 12-341.01. See Ahwatukee Custom
Estates Momt. Ass'n. Inc, v. Bach. 193 Ariz. 401.402 H 5. 973 P.2d 106.107 <19991.
H35 Section 12-341.01 (A) provides that a court may award reasonable attorneys' fees to the successful party in "any
contested action arising out of a contract, express or implied." When questions of contract are combined with other
questions, judicial analysis whether the action is sufficiently contractual to invoke A.R.S. § 12-341.01 (A) "has aptly focused
on the substance of the action and the statutory policy to mitigate the burden of the expense of litigation to establish a just
claim or defense." A.H. Bv & Through White v. Ariz. Prop. & Cas. Ins. Guar. Fund. 190 Ariz. 526. 529. 950 P.2d 1147. 1150
(19971 (internal quotation marks and citation omitted). The mere existence of a contract somewhere in the transaction is
insufficient to support a fee award. Id. That is, "when the cause of action arises from statutory rather than contractual
obligations, the peripheral involvement of a contract does not require the application of [A.R.S.] § 12-341.01 (A).” Id. (internal
quotation marks and citation omitted).
1[36 Although this action might first appear to arise from constitutional or statutory interpretation, as EORP urges, a closer
examination of the operation of those contractual provisions reveals otherwise. Sections 38-810 and 38-818 are part of the
Plan's statutory scheme to provide retirement benefits for elected officials. A.R.S. § 38-802. The Plan's fund is used
"exclusively for payment of benefits to retired members or their beneficiaries" and "for payment of the administration,
operation and investment expenses of the plan." Id.
1J37 As recognized in Yeazell, because the Gift Clause forbids the Legislature from providing gratuities, the right to receive
retirement benefits necessarily arose as a condition of the employee's contract of employment. See 98 Ariz. at 114. 402
P.2d at 544. The Plan is therefore a creature of statute that assumes the contractual obligations between the State and
public employees and exists to administer the statutorily-imposed duties of generating assets for benefit payments to retired
members or their beneficiaries. Thus, the Plan's relationship with the Class Members is governed by the members'
employment contracts with the State. Section 12-341.01 is therefore applicable to disputes between the Plan and Class
Members because the Plan's obligation is determined by the underlying employment contracts. See Penderaast v. Ariz.
State Ret. Svs.. 234 Ariz. 535. 542 IT 23. 323 P.3d 1186. 1193 /Add. 20141 (providing that a public employee was entitled to
attorneys' fees on appeal when the Arizona State Retirement System appealed the trial court's finding that application of a
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

8/19

Hall v. ELECTED OFFICIALS’RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1/23/2021

statute limiting the employee's purchase of credited service violated the Pension Clause, because the matter arose out of
contract). Consequently, because this action arose out of the contractual relationship between the Class Members and the
State, it arose out of contract and is properly within the scope of the attorneys' fees statute.

B. Prejudgment Interest
f38 The Class Members next contend that they are entitled to prejudgment interest on the principal amounts due under the
judgment. EORP counters that the Class Members are not entitled to such an award because EORP cannot be charged
1120 interest *1120 on money it was not legally obligated or able to pay and that the Plan statutes provide the sole remedy for the
Class Members. We review de novo whether a party is entitled to prejudgment interest. Gemstar Ltd. v. Ernst & Young. 185
Ariz. 493. 508. 917 P.2d 222. 237 f 19961.
1J39 Although the trial court found that awarding prejudgment interest in this case would not serve the purposes of
prejudgment interest, "prejudgment interest on a liquidated claim is a matter of right” in a contract action. Metzler v. BCI
Coca-Cola Bottling Co.. 235 Ariz. 141. 144 IF 11. 329 P.3d 1043. 1046 (20141 (citation and quotation marks omitted). A claim
is liquidated "if the evidence furnishes data which, if believed, makes it possible to compute the amount with exactness,
without reliance upon opinion or discretion." Schade v. Diethrich. 158 Ariz. 1. 14. 760 P.2d 1050. 1063 (1988) (citation
omitted).
Tj40 Here, the principal amounts due are liquidated because they may be computed with exactness. One principal amount
due is the excess payment contributions made by all Class Members. The other principal amount due is the delayed
payments of permanent benefit increases under the former benefit increases formula to judges who have retired before this
action has concluded. These amounts are readily determinable. Consequently, because the principal amounts due can be
computed with exactness, the Class Members are entitled to prejudgment interest on those amounts at the rate determined
pursuant to A.R.S. § 44-1201(F) (setting the rate for prejudgment interest).

C. Relief Also Against the State
1J41 The Class Members argue finally that judgment should also run against the State because the State voluntarily
intervened and actively litigated the case. The State counters that the Class Members will obtain all the relief to which they .
may be entitled from EORP and that it intervened for the limited purpose of defending the Bill's constitutionality. We hold
that under the facts here, relief should also run against the State.
fl42 Arizona courts have previously held that intervenors may seek relief in civil rights actions, have judgments run against
them, and be the prevailing party for purposes of the attorneys' fees statute. See, e.g., Civil Rights Div. of Ariz. Dept of Law
v. Super. Ct. In & For Pima Ctv.. 146 Ariz. 419. 426-27. 706 P.2d 745. 752-53 (Add. 19851 (providing that attorneys' fees
which the Legislature intended could be recovered in civil rights actions are a form of relief that may be sought only by
individual plaintiffs or intervenors); Ariz. Ctr. for Law in Pub. Interest v. Hassell. 172 Ariz. 356. 371-72. 837 P.2d 158.173-74
/Add. 19911 (allowing judgment to run against intervenor-defendants and awarding plaintiffs attorneys' fees against
defendants and intervenor-defendants under the private attorney general doctrine); McKesson Chem. Co., a div. of
Foremost-McKesson. Inc, v. Van Waters & Rogers. 153 Ariz. 557. 739 P.2d 211 (Add. 19871 (remanding for the trial court to
determine whether intervenor-defendant was entitled to attorneys’ fees as prevailing party and awarding intervenordefendant attorneys' fees incurred on appeal).
1J43 Therefore, relief can run against an intervenor-defendant. Here, the State elected to intervene as a defendant —
referring to itself as "Intervenor Defendant" in several pleadings — and fully participated in this litigation, as well as in Fields.
Although the Class Members did not amend their complaint to assert a claim against the State, they did notify the parties
that they would seek relief against EORP and the State. "It would be hypertechnical and unjust to preclude [Class Members]
from recovering [relief] that they have earned, merely for failure to amend their complaint to expressly include [the State]
within their demand for judgment." Hassell. 172 Ariz. at 371-72. 837 P.2d at 173-74. Consequently, under the facts
presented, relief should also run against the State.

III. CONCLUSION
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

9/19

1/23/2021
1121

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
1J44 For the foregoing reasons, we affirm the trial court's judgment with respect to the unconstitutionality of the two
provisions of the Bill at issue, but reverse with respect to *1121 the court's denial of attorneys' fees, prejudgment interest,
and relief against the State. On appeal, the Class Members request attorneys’ fees pursuant to A.R.S. § 12-341.01. In our
discretion, we deny their request.
CATTANI, J., concurring.
1J45 I concur in the court's analysis, but I write separately to express my view that the superior court correctly ruled that
Senate Bill 1609's change to the Class Members' contribution rate violates the Pension Clause of the Arizona Constitution.
From my perspective, changing the employees' pension contribution rate specified by statute — and thereby decreasing the
employer's funding share — diminished the employee's public retirement system benefit. And because the Pension Clause
provides that "public retirement system benefits shall not be diminished or impaired," Ariz. Const, art. 29, § 1 (C), the Bill is
unconstitutional regardless whether it would survive scrutiny under the Contract Clause, and the remand urged by the
dissent is unnecessary.
1J46 The defined benefit pension system to which Class Members belong guarantees each Class Member fixed monthly
benefit payments from the time of retirement for the remainder of the retiree's life. The cost of funding the post-retirement
benefit payments is shared by Class Members and the State, with Class Members paying a fixed percentage of their salary
at the rate specified in A.R.S. § 38-810, and the State responsible for the balance necessary (beyond investment earnings)
to ensure the actuarial soundness of the pension system.
1|47 EORP and the State, as well as the dissent, posit that the Bill did not diminish or impair Class Members' pension
benefits because the Bill did not change the guaranteed monthly payments to which Class Members are entitled upon
retirement. But under that view, the Legislature could unilaterally increase the employees' contribution rate to the point that
Class Members shoulder the entire cost of funding the public pension system rather than sharing the cost between
employee and employer. And it would be nonsensical to suggest that converting a public employee's employer-provided
retirement benefit into an entirely self-funded retirement plan would not diminish the employee's "public retirement system
benefits."
1J48 The same logic applies to a partial reduction in the employer's share of contributions to a retirement plan. Consider, for
example, an employment agreement in which an employer agreed to share in the cost of a $1,000,000 retirement annuity
(to be purchased on the date of retirement) that would pay the employee $5,000 per month for the rest of the employee's
life. If the employer agreed to pay 60 percent ($600,000) of the cost to fund the annuity, with the employee responsible for
the remaining 40 percent ($400,000), the value of the retirement benefit provided by the employer would be $600,000 as of
the date of retirement. Under that scenario, increasing the employee's share to 50 percent and reducing the employer's
contribution to 50 percent would mean that the value of the retirement benefit provided by the employer would only be
$500,000, which would obviously be a reduction in that benefit.®
TJ49 This example highlights that the benefit to an employee participating in a pension plan should not be measured — as
the dissent suggests — as simply the sum of the retirement payments received during a retiree's lifetime. Rather, the value
of the benefit to the employee is the amount the employer contributes to guarantee the stream of post-retirement payments.
And when the employee's contribution rate is a factor in determining the amount of the employer's contribution, the

1122 employee's contribution rate is a *1122 protected benefit under the Pension Clause.® Cf. Fields v. Elected Officials' Ret.
Plan. 234 Ariz. 214. 219-20. HIT 24-29. 320 P.3d 1160 (20141 (holding that the statutory formula for determining retiree
benefit increases constitutes a pension benefit for purposes of the Pension Clause). Thus, a unilateral increase in the
employee's contribution rate violates the Pension Clause.
1J50 The dissent relies on Tavlorv. City of Gadsden. 767 F.3d 1124 (11th Cir. 2014). and Borders v. City of Atlanta. 298 Ga.
188. 779 S.E.2d 279. 281 (20151. to suggest that courts in other jurisdictions have concluded that pension contribution rates
are not a "benefit." But the analysis in those cases is based on a critical distinction: in both Taylor and Borders, the terms of
the pension plan from the outset expressly allowed modification. Taylor involved a pension system in which the employee
handbook "explicitly stated that the ‘member contribution rate is determined by statute and subject to change by the
Alabama Legislature.'" 767 F.3d at 1129. The retirement plan at issue in Borders "unambiguously providefd] for subsequent
modification or amendment." 779 S.E.2d at 282. The Pension Clause is only implicated when a promised benefit is
"diminished or impaired," and modifying the contribution rate in those circumstances did not take away a promised pension
benefit precisely because the employment contract authorized the modification.
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

10/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
1(51 There is no such modification provision applicable to Class Members in this case. Section 38-810 specified a fixed 7%
employee contribution rate, and no representations were ever made to Class Members that their contribution rate could vary
in any way. Had Class Members been advised at the outset of their employment that their contribution rate was subject to
change by the Legislature (effectively setting a variable formula for employee and employer contribution rates), Class
Members — like the employees in Taylor and Borders — would not have a claim under the Pension Clause that a promised
benefit was taken away.
1J52 And therein lies the problem underlying the position taken by EORP and the State, as well as the dissent, because the
analysis turns on the question of what pension benefits employees were promised when they were hired. At its core, this
case is based on the simple premise that employees who accept employment are entitled to rely on promises made as part
of their employment contract. And when those promises involve pension benefits for state employees, that guarantee
carries constitutional weight. Here, because Class Members were promised a specified (fixed) pension contribution rate as
part of their initial employment contract, the Bill’s changes to that rate diminished a promised benefit and thus contravened
the Pension Clause.
1J53 The dissent asserts that the employee contribution rate was in fact variable, and that the Bill thus did not result in a
Pension Clause violation. Although the constitutional provision regarding public retirement systems contemplates that total
contributions will vary as necessary to ensure actuarial soundness, see Ariz. Const, art. 29, § 1 (A), the provision says
nothing about the employees' and employer’s relative share of the total contribution amounts. And nothing in the language
of § 38-810 or the terms of employment under which Class Members were hired suggests a variable rate.® Rather, § 38-

1123 810 (as it existed when each of the Class Members *1123 was hired) specified an employee contribution rate of 7% of
salary, and this became a provision of the employment contract on which each Class Member was entitled to rely.
1J54 The dissent notes that § 38-810 "has never contained language indicating an expectation or guarantee." But the
language of the statute creates precisely that expectation by imposing a fixed contribution rate for Class Members. And that
language is in stark contrast to statutory language the Legislature has used in establishing other pension plans — such as
ASRS — that impose a variable employee contribution rate. See A.R.S. § 38-736 (specifying that ASRS "member
contributions are a percentage of a member's compensation equal to the employer contribution").®
1J55 The Legislature could have similarly designed EORP from the outset with a variable employee contribution rate. But it is
not our role to rewrite the original statute or adopt language from other statutes. See Hughes v. Jorgenson. 203 Ariz. 71. 73.
1111. 50 P.3d 821 (20021 (noting presumption that "the legislature has said what it means"); see also Comm, for Pres, of
Established Neighborhoods v. Riffel. 213 Ariz. 247. 249-50. U 8. 141 P.3d 422 /Add. 20061 (noting that "when the legislature
uses different language within a statutory scheme, it does so with the intent of ascribing different meanings and
consequences to that language").
1J56 Finally, the dissent misses the mark by suggesting that this case ”freez[es] employee contribution rates in perpetuity.”
Nothing in the court's opinion prevents the State from prospectively specifying — as part of an initial employment contract
— that a defined-benefit employee is subject to a variable contribution rate or, as the State has actually done for judges
appointed after the effective date of the Bill, provide new employees with a defined contribution pension plan. Moreover,
although the dissent references pension systems involving other types of state employees while highlighting the economic
concerns underlying pension reform proposals, the court's decision addresses only a small percentage of state employees
(judges) who are part of an independent branch of government and whose positions carry added constitutional protections.
See Ariz. Const, art. 6, § 33 (providing that the Legislature cannot remove judges from office or reduce their salary). And
although the State cannot fire judges or reduce their salaries, nothing prevents the State from negotiating a change to the
contribution rate forjudges and incentivizing such a change by, for example, conditioning future raises on an agreement to
accept a higher contribution rate. Accordingly, the court's decision does not "lock in" an unworkable contribution rate in
perpetuity, and instead simply requires that changes to promised pension benefits be carried out in a manner that comports
with constitutional principles.
BOLICK, J., joined by TREBESCH, J., dissenting in part and concurring in the judgment in part.
1J57 The majority today holds unconstitutional statutory changes to the permanent benefit increase ("PBI") formula and
contribution rates as applied to active members of EORR We respectfully dissent from the holding that changes to
contribution rates are unconstitutional and otherwise concur in the result.

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+etected+officials%27+retirement+plan&hl=en&as_sdt=806

11/19

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1/23/2021

1J58 This case involves an anomaly that is largely this Court's invention. Most Arizona state employees are at-will
employees. EORP's active members are either elected officials or judges who serve for fixed terms. No formal contract
exists between the state and those employees. However, in a work of legal fiction to which the likes of John Grisham could
only aspire, this Court fifty-one years ago implied such a contract for purposes of pension benefits, whose terms are largely
set upon the employment date and whose benefits extend far beyond retirement until the employees' beneficiaries pass on.
1124 *1124 See Yeazell. 98 Ariz. at 117. 402 P.2d at 546. The voters subsequently incorporated much of that legal relationship
into our Constitution. Ariz. Const, art. 29, § 1. We are impelled by that law to agree with the majority that the change in the
PBI formula is impermissible. But by freezing employee contribution rates in perpetuity, the majority goes far beyond
anything contemplated by our jurisprudence or the Constitution, thereby jeopardizing the Plan's financial integrity, imposing
an enormous uncontemplated burden on taxpayers, and preventing the state from reasonably requiring employees to
shoulder part of the increased burden of paying for their own retirement benefits.

I.
A. Factual Background
fl59 Arizona has four statewide retirement plans for public employees: the Arizona State Retirement System ("ASRS"),
EORP, the Public Safety Personnel Retirement System f'PSPRS"), and the Corrections Officers Retirement Plan ("CORP").
See Hayleigh S. Crawford, Going For Broke: Arizona's Legal Protection of Public Pension Benefits, 46 Ariz. St. L.J. 635,
655 (2014). EORP is by far the smallest.^ All are "defined benefit" systems, which means they are "funded by employer
and employee contributions and guaranteed the employee a certain benefit upon retirement." Id. at 639-40.
1f60 In 1985, the Legislature enacted EORP, which provided to elected officials, including judges, a pension in the amount of
three and one-third percent of salary for each year worked, up to eighty percent of average yearly salary after twenty years
of employment, which was increased to four percent in 1988. See 1985 Ariz. Sess. Laws, ch. 309, § 4 (1st Reg. Sess.)
(codified at A.R.S. § 38-808(B)(1) (1985)). That promised benefit, which essentially places elected officials and judges on
par with first responders, has never been changed.
1J61 The EORP Plan has four funding sources: employer contributions, employee contributions, court filing fees, and
investment proceeds. The employee contribution rate is set by statute and has changed over time. In 1985, it was set at six
percent of the employee's gross salary. See id. (codified at A.R.S. § 38-810(A) (1985)). In 1987, it was increased to seven
percent. See 1987 Ariz. Sess. Laws, ch. 146, § 4 (1st Reg. Sess.) (codified at A.R.S. § 38-810(A) (1987)).
1J62 By contrast, employer contributions are determined by actuarial calculations of the amount needed to fund the plan in
light of projected payouts and investment income, in order to cover both normal service costs and the amortized amount of
the unfunded actuarial accrued liability over a period not to exceed thirty years. In recent years, the employer contribution
rate has increased dramatically, from a low of 6.97 percent of each employee's salary in 2002 to 29.79 percent in 2011, the
year in which the reform at issue was adopted. According to EORP, the rate has continued to increase every year since
then, to 39.62 percent in the fiscal year ending in 2014. In other words, the employer's contribution rate has increased 568
percent in twelve years.
1J63 Also at issue in this case are "permanent increases in base benefits" for retired employees. In 1990, the state enacted
the first statutory PBI formula, providing retirement payment increases based on the Plan's investment earnings. 1990 Ariz.
Sess. Laws, ch. 236, § 4 (2d Reg. Sess.) (codified at A.R.S. §§ 38-818(B), (E), (F) (1990)). If investments returned more
than nine percent, half of the return would be used to fund increases up to four percent, with any remainder placed into a
reserve for future benefits increases. Id. After that statute expired in 1994, the Legislature enacted a new PBI formula the
following year. Increases were based on the Plan’s investment returns, capped at the lesser of three percent or half of the
percentage change in the consumer price index. 1996 Ariz. Sess. Laws, ch. 198, § 1 (2d Reg. Sess.) (codified at A.R.S. §
1125 38-818(F) (1996)). In 1998, the Legislature raised the maximum possible increase to four *1125 percent and eliminated any
reference to the inflation rate. 1998 Ariz. Sess. Laws, ch. 264, § 1 (2d Reg. Sess.) (codified at A.R.S. § 38-818(F) (1998)).
That statutory formula remained in place until S.B. 1609. According to EORP, since the 1998 change, EORP retirees
received a four percent annual benefit increase each year until the end of fiscal year 2010.

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

12/19

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1/23/2021

|[64 The statute at issue in this case is part of a nationwide effort to reform public pensions. As a result of recession and
insufficient contributions, as of 2010, public pensions for state employees nationally were underfunded by an estimated one
trillion dollars. Pew Center on the States, The Trillion Dollar Gap: Underfunded State Retirement Systems and the Roads to
Reform at 1-3 (2010). Between 2008 and 2013, every state passed some type of pension reform legislation. See National
Conference of State Legislatures, Pensions and Retirement State Legislation, available at http://www.ncsl.org/research/
fiscal-policy/pension-legislation-database.aspx (last visited Mar. 7, 2016).
1J65 Arizona's public pensions were not immune to these financial challenges. In 2010, Arizona taxpayers were paying at
least $1.39 billion annually to fund the state pension systems, a 448 percent increase from ten years previously and more
than the estimated cost for higher education, corrections, or healthcare for indigent people. Crawford at 637. Serious
reversals in investment returns in 2000, 2008, and 2009, combined with significant actuarial errors pertaining to the PBI
mechanism, contributed to what EORP characterizes as "dramatic decreases" in the Plan's funding ratio — a benchmark of
financial soundness calculated by dividing the plan's assets by its liabilities. The funding ratio decreased from 141.7 percent
in 2001 to 58.4 percent in 2012, a decline EORP considers "alarming." See generally Fields. 234 Ariz. at 217 If 8, 320 P.3d
at 1163 (recounting declining funding ratio). Based on record evidence, EORP suggests that an "80% funding ratio is a
generally accepted indicator of a healthy pension plan.” Additionally, EORP's PBI reserve for future benefit increases
declined from more than $40 million in 2000 to zero in 2011. In sum, EORP was severely under-funded, rendering
precarious its ability to pay future pension obligations.
1J66 In an effort to place EORP, CORP, and PSPRS on a more sound financial footing, the Legislature passed S.B. 1609 in
2011. As relevant here, the statute increased the employee contribution rate from seven percent to ten percent for fiscal
year 2011-12, to 11.5 percent in 2012-13, and a maximum of thirteen percent thereafter. A.R.S. § 38-810(F)(1)-(4) (2011),
renumbered as A.R.S. § 38-810(G)(1)-(4) (2013). The Legislature also included a "maintenance of effort" clause, which
provides that employee contributions above seven percent of salary shall not be used to reduce the employer's contribution.
A.R.S. § 38-810(G) (2011), renumbered as A.R.S. § 38-810(H) (2013).
K67 Senate Bill 1609 also made changes to the PBI formula in EORP, PSPRS, and CORP. First, it ended future inflows into
the PBI reserve fund. A.R.S. § 38-818.01(E). Second, it increased the investment return rate upon which future PBIs would
be calculated. A.R.S. § 38-818.01 (D). Finally, it maintained a four percent maximum for future benefit increases, it pegged
such increases to the Plan's funding ratio, with larger benefit increases as the actuarial soundness of the Plan improved.
A.R.S. § 38-818.01(C). These changes.— the increased employee contribution rate and the changes in the PBI formula —
are at issue here.
lf68 In 2013, EORP was closed to new members so that elected officials and judges taking office thereafter are no longer
eligible. 2013 Ariz. Sess. Laws, ch. 216, § 9 (1st Reg. Sess.). Instead, they participate in a "defined contribution” program.

Ill]

B. Applicable law
TJ69 The Contract Clause of our Declaration of Rights, comprised by Arizona Constitution article 2, section 25, provides that
1126 "no... law impairing the obligation of a contractQ *1126 shall ever be enacted." Historically, Arizona courts have applied the
United States Supreme Court's test for determining violations of the Contract Clause of the Federal Constitution. In order to
violate the Contract Clause, a law must substantially impair a contractual relationship. The state may justify the impairment
by demonstrating a significant, legitimate public purpose, and that the impairment is reasonable and appropriate. See, e.g.,
Fund Manager. Pub. Safety Pers. Ret. Svs. v. City of Phoenix. Police Dep'tPub. Safety Pers. Ret. Svs. Bd.. 151 Ariz. 487,
491.728 P.2d 1237. 1241 (Add. 19861 (citing Energy Reserves Grp.. Inc, v. Kansas Power & Light Co.. 459 U.S. 400. 41112. 103 S.Ct. 697. 74 L.Ed.2d 569 (198311.
1J70 This Court first held that public pension benefits are contractual rights in Yeazell. 98 Ariz. at 114-15, 402 R2d at 544-45.
Because the Arizona Constitution prohibits gifts of public funds to individuals.^—I the Court reasoned that "state pensions
cannot be sustained as constitutional unless anchored to a firmer basis than that of a gift." Id. at 112, 402 P.2d at 543. On
that basis, the Court determined that public pensions are contractual in nature, and that ''[cjontroversies as to those rights
should be settled consistent with the law applicable to contracts." Id. at 113-14, 402 P.2d at 544.

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

13/19

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1/23/2021

1(71 More specifically, the Court held that "the laws of the state are a part of every contract." Id. at 113, 402 P.2d at 544.
Because retirement benefits are "a valuable part of the consideration for the entrance into and continuation in public
employment," the "right to a pension becomes vested upon acceptance of employment." Id. at 115,402 P.2d at 545. A
"contract cannot be unilaterally modified nor can one party to a contract alter its terms without the assent of the other party."
Id. Applying those principles, the Court held that a legislative amendment "may not be arbitrarily applied retroactively to
impair the contract" as it existed at the time the employment relationship was established. Id. at 117, 402 P.2d at 546.
1f72 The Court in Yeazell and subsequent cases essentially created a one-way ratchet. Baseline benefits are set on the
employment date. They can be increased but never decreased without members' consent. Such un-bargained for, openended benefits are hardly compelled by the Gift Clause, though they might well be forbidden by it. Cf. Turken v. Gordon. 223
Ariz. 342. 351 1143. 224 P.3d 158. 167 (20101 (payments of public funds must be supported by consideration that is not
disproportionate to the value received). In dissent, Justice Udall declared that the majority opinion "had no support in reason
or logic nor the case law ... and will create problems far beyond the immediate controversy." Yeazell. 98 Ariz. at 124. 402
P.2d at 551 (Udall. J.. dissentinal. Justice Udall was prescient.
1J73 However, the Yeazell decision embraced a vitally important limiting principle to ensure that the supposed pension
contract would not necessarily be a financial suicide pact for the taxpayers. "We do not... mean to imply what rights or
remedies might be available to either party in a situation where it is established that a retirement plan is actuarially
unsound," the Court declared. Id. at 117, 402 P.2d at 546. In such circumstances, the Court stated, ordinary contract
principles such as mutual mistake of fact could be applied to modify or rescind a contract in appropriate circumstances. Id.
at 116, 402 P.2d at 546. Specifically, if both parties "labored under the mistaken assumption that there was a fund sufficient
to afford... beneficiaries of the fund the amount provided" by the original plan, the state could modify the contract if it carried
its burden of proving the mutual mistake. Id. Although the State presented abundant evidence that EORP was structurally
unsound prior to S.B. 1609, the trial court never addressed the question of mutual mistake, instead disposing of the case
entirely under the Pension Clause of our Constitution.
U74 In 1998, upon legislative referral, Arizona voters enacted Proposition 100, which added article 29, section 1 to the
1127 Arizona Constitution. Most relevant to the issues presented *1127 here is section C, which provides, "Membership in a
public retirement system is a contractual relationship that is subject to article II, section 25 [the Contract Clause], and public
retirement system benefits shall not be diminished or impaired."^—I
1[75 In Fields, this Court struck down under the Pension Clause S.B. 1609's change in the permanent benefit increase
formula as to retired EORP members. 234 Ariz. at 221 IT 34. 320 P.3d at 1167. The Court concluded that the statutorily
prescribed permanent benefit increase formula is a Plan "benefit," and that S.B. 1609’s formula modification violated article
29, section 1 because it "diminishes and impairs the retired members’ benefits.” Id. at 216 H 1, 220-22 HU 30-36, 320 P.3d at
1162.1166-68.
1f76 In this action, on cross-motions for summary judgment, the trial court concluded that the changes to the permanent
benefit increase formula and contribution rates for active Plan members violated the Pension Clause. Because it so ruled, it
did not reach any of the other constitutional issues. Although we agree with the majority’s outcome on the PBI formula
issue, we believe that the contribution rate is not a pension "benefit," and that the trial court improperly granted summary
judgment to the plaintiffs without considering defendants' defenses under Yeazell or the Contract Clause.

II.
A. The Pension Clause
1j77 Although the majority reaches the Pension Clause issue only with regard to the PBI formula and not to contribution
rates, we consider it in both contexts because it was the sole basis for the trial court’s contribution rates ruling as embraced
by the concurring opinion.
1J78 "In interpreting a constitutional amendment, our primary purpose is to "effectuate the intent... of the electorate that
adopted it.'" Id. at 219 U 19, 320 P.3d at 1165 (quoting Jett v. City of Tucson. 180 Ariz. 115. 119. 882 P.2d 426, 430 (19941).
In doing so, we give words "the meaning most common to the ordinary individual." Downs v. Sulphur Springs Valiev Elec.
Coop.. 80 Ariz. 286. 293. 297 P.2d 339 (19561: accord Fields. 234 Ariz. at 219 U 19. 320 P.3d at 1165.
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

14/19

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1/23/2021

1J79 In addition to the text's plain language, the ballot pamphlet can aid in determining the electorate's intent. See Calik v.
Konaable. 195 Ariz. 496. 4981110. 990 P.2d 1055. 1057 (19991. The ballot measure's proponents (no opponents submitted
statements) all address one overriding purpose: to prevent the legislature from raiding pension funds, which had occurred in
other states. See Ariz. Sec'y of State, 1998 Publicity Pamphlet 6-12 (1998), available at http://apps.
azsos.gov/election/1998/lnfo/PubPamphlet/ Prop100.html.
1)80 That objective reflects in the first two of article 29, section 1's three substantive provisions. Subsection A declares,
"Public retirement systems shall be funded with contributions and investment earnings using actuarial methods and
assumptions that are consistent with generally accepted actuarial standards." Subsection B provides, "The assets of public
retirement systems, including investment earnings and contributions, are separate and independent trust funds and shall be
invested, administered and distributed as determined by law solely in the interests of the members and beneficiaries of the
public retirement systems."
K81 On its face, subsection C, at issue here, makes two changes from prior law regarding pension contracts.11^ First, it
establishes that "[mjembership in a public retirement system is a contractual relationship that is subject to article II, § 25,"
1128 the Contract Clause. This language marks a significant departure from ‘1128 Yeazell and its progeny because instead of
applying ordinary contract principles to pension contract terms, it establishes that the relationship is subject to Contract
Clause rules, which generally provide greater leeway to contract modifications by government. See, e.g., Fund Manager.
Pub. Safety Pers. Ret. Svs.. 151 Ariz. at 491. 728 P.2d at 1241. As a result, this change is extremely consequential for the
present case.
1J82 Second, subsection C states that "public retirement system benefits shall not be diminished or impaired." This too
marks a departure from prior law, more favorable to Plan members and beneficiaries in this instance because it suggests
that benefits cannot be diminished or impaired period, even in light of contract defenses that might previously have been
raised under Yeazell.
1J83 It therefore makes an enormous difference whether a particular pension contract provision is a "benefit.” If so, it is
legally sacrosanct; if not, it is subject to the Contract Clause's modification rules. The Court recognized this crucial
distinction in Fields, declaring that the "Contract Clause applies to the general contract provisions of a public retirement
plan, while the Pension Clause applies only to public retirement benefits." 234 Ariz, at 2181117. 320 P.3d at 1164. In this
case, the majority correctly applies the changes wrought by the Pension Clause to invalidate changes to the PBI formula,
but improperly ignores them in order to strike down the change in contribution rates.

B. Permanent benefit increases
H84 This Court decided in Fields that the PBI formula for retired Plan members is a benefit. Because S.B. 1609 diminished
or impaired that benefit, it violated the Pension Clause. 234 Ariz. at 220 1H1 26-27. 320 P.3d at 1166.
1(85 The State and EORP argue that the vesting statute, A.R.S. § 38-810.02, changed the pension contract for employees
hired after its 2000 effective date. Specifically, they urge that for such employees, benefits do not vest until retirement,
hence the state may determine benefit increases upon retirement.
1f86 As a general proposition, we agree with defendants that the state is free to change pension terms or benefits or
eliminate them altogether for new employees, as the state did by changing to a defined-contribution system for judges and
elected officials in 2013. But their interpretation of the vesting statute collides with the contractual nature of public pensions,
under Yeazell and as embraced and modified by article 29, section 1. Prior to the vesting statute in 2000, all seem to agree
that Plan members had a contractual expectation of a particular formula for permanent benefit increases. The State and
EORP posit that after the vesting statute, that contractual expectation was replaced by a contingent expectation; that is, the
state may determine benefit increases upon retirement.
1187 Such a contingent, open-ended possibility fails for two reasons. First, it does not provide a sufficiently definite term to
satisfy the requirement of contractual consideration. See, e.g., Savoca Masonry Co. v. Homes & Son Constr. Co.. 112 Ariz.
392. 394. 542 P.2d 817. 819 (19751 (requiring sufficient specification of terms for mutual assent). Second, it raises the Gift
Clause concerns that animated the Yeazell decision because the state is deciding the amount of compensation after work is
performed, thus giving rise to the prospect of a gift rather than proportionate, bargained-for consideration. 98 Ariz. at 11213. 402 P.2d at 543-44.
https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

15/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
K88 Accordingly, we conclude that the vesting statute did not alter the contractual expectations of EORP Plan members,
and thus the Court's conclusion in Fields that the PBI formula is protected by the Pension Clause also controls here.
Because S.B. 1609's modification to the PBI formula impaired or diminished that benefit for active Plan members, it violates
the Pension Clause.

C. Contribution Rates
U 89 By contrast, contribution rates are not benefits and thus do not fall within the Pension Clause's strictures.
1(90 By their nature, pension plans fall into one of two categories: defined benefits or defined contributions. In the former,
1129

benefits are fixed but the contributions may vary; in *1129 the latter, contributions are fixed but the payouts may vary. See,
e.g., Crawford at 639-42.
^91 Article 29, section 1(B) uses the term "contributions" and makes clear they are Plan "assets," providing that they are to
be held in trust for the Plan's beneficiaries. Section 1 (A) provides that public pension systems "shall be funded with
contributions and investment earnings using actuarial methods and assumptions that are consistent with generally accepted
actuarial standards." That language indicates contributions are not fixed, but rather may vary over time to ensure the Plan's
financial integrity. Indeed, at oral argument, plaintiffs' counsel could point to nothing in the ballot materials that would have
placed voters on notice that the state could not adjust employee contribution rates to ensure the Plan's financial viability.
1(92 Thus, unlike the PBI formula to which an employee is contractually "entitled" according to statutory provisions in effect
rate. Indeed, if they were, the failure to raise sufficient funds through employee contributions could jeopardize the Plan's
financial viability required under article 29, sections 1 (A)-(B), thus justifying the state's change to those rates. By contrast, if
the entire burden of providing adequate pension contributions is placed upon the state, it would create an uncertain, openended, and limitless obligation that could run afoul of the Gift Clause. See Turken. 223 Ariz. at 351 1143. 224 P.3d at 167.
1J93 The employee contribution rate statute, A.R.S. § 38-810, has never contained language indicating an expectation or
guarantee. In fact, the employee contribution rate has varied over time, including an increase from six to seven percent in
1987, shortly after EORP was created. See 1987 Ariz. Sess. Laws., ch. 146, § 4 (1st Reg. Sess.) (codified at A.R.S. § 38SI 0(A) (1987)). Arizona tax statutes also treat pension contributions and benefits differently, with the former generally
shielded and the latter generally exposed to taxation. See A.R.S. §§ 38-810, -810.01, -811,43-1022. Arizona contribution
rate statutes thus do not exhibit the indicia of contractual entitlement that the Court found with regard to the PBI formula in
Fields. 234 Ariz. at 219 HIT 23-24. 320 P.3d at 1165.
1(94 Other courts that have considered the precise issue of whether pension contribution rates are a benefit have held they
are not. In Tavlorv. Citv of Gadsden. 767 F.3d 1124 (11th Cir. 20141, plaintiffs argued, as here, that they had a protected
contractual pension right to a particular contribution rate. Holding the change did not violate the state or federal Contracts
Clauses, the court explained, "Here, the City did not alter plaintiffs' pension benefits; instead, it altered their pension
obligations." Id. at 1135.
1(95 The Georgia Supreme Court likewise recently considered a challenge to sizable increases in employee contribution
rates. The court observed that the "pension contribution increases were not retroactive and did not change a member’s
benefit formula, calculation of pension benefit, or actual benefit amount payable at the time of retirement." Borders v. City of
Atlanta. 298 Ga. 188. 779 S.E.2d 279. 281 (20151. The court upheld the contribution rate change because it "did not alter
Plaintiffs' pension benefits, but rather modified their pension obligations, and in no manner divested Plaintiffs of their earned
pension benefits, so as to implicate constitutional concerns." Id. at 287; see also In feJEnrolledl_Sen._B/7/_f269._389 Mjch.
659. 209 N.W.2d 200. 203 (1973). followed in AFT Michigan v. Michigan. 303 Mich.App. 651, 846 N.W.2d 583. 593-94
(2014)’
1(96 Furthermore, if contribution rates were benefits, we have difficulty perceiving which aspects of the pension contract
would be subject to the Contract Clause rather than to the absolute prohibition against benefit impairment in article 29,
section 1 (C). Rather, as the Court stated in Fields, that special protection is reserved for benefits, which contribution rates
are not. Indeed, we are loath to attribute to voters the intent to have taxpayers alone shoulder all unanticipated financial
burdens of guaranteed pension payouts, absent clear evidence they were placed on notice that they were doing so when
they adopted article 29, section 1.

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

16/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar

1130 *11301197 The majority does not address this issue, finding instead that the changes to the contribution rate violate Yeazell.
But the concurring opinion by Judge Cattani would affirm the trial court's holding that employee contribution rates are
benefits and thus unchangeable under the Pension Clause.
1J98 Judge Cattani compares the defined-benefit contribution to an annuity. Respectfully, it is not. The common definition of
annuity is "[a] fixed sum of money payable periodically." Black's Law Dictionary 105 (9th ed. 2009). The defined-benefit
pension, by contrast, involves fixed benefits but requires variable payments. Judge Cattani seems to recognize that
distinction by observing that if this were an annuity, the amount of payments, or cost, would "be determined upon the
employee's retirement." But in reality, under EORP, the payments are made and calculated during employment, based not
only on that particular employee's circumstances but the pension system as a whole; indeed, deferring until retirement the
amount of an employee's compensation would present Gift Clause problems because it would be indeterminate and openended. Perhaps the legislature could improve the current system by purchasing annuities for its employees, but that is not
the system before us.
1J99 Judge Cattani also observes that the system has no "modification provision” to alert employees that contribution rates
might go up. Were this a real rather than fictional contract, perhaps it would contain such a provision. As with many benefits,
such as health insurance, parking, or public transit passes, employee costs can vary. The benefit is the outcome, not how
much it costs the employer or employee. That is the nature of a defined-benefit as opposed to a defined-contribution
retirement plan. Moreover, as noted, the statutes governing employee contributions have never created an expectation or
entitlement, and the rate has changed multiple times over the years. A post hoc transformation of a defined-benefit pension
plan into an annuity whose cost is determined upon retirement does not alter the legal reality that employee contribution
rates are not benefits.
1f100 For the foregoing reasons, the trial court erred in holding that S.B. 1609's employee contribution rate increase violates
the Pension Clause, the sole basis for its ruling on contribution rates.

D. The Contract Clause and Yeazell
IP 01 The majority bases its decision striking down the contribution rate changes on its view that Yeazell allows no changes
whatsoever to a pension plan that are to the members' disadvantage, absent the members’ consent. As we noted earlier,
that conclusion misreads Yeazell, which expressly recognizes contract defenses such as mutual mistake regarding the
Plan's actuarial soundness. 98 Ariz. at 116. 402 P.2d at 546. It also ignores the constitutional changes that significantly alter
our jurisprudential landscape.
IP 02 The majority says we "over-read" Yeazell because although it recognizes the mutual mistake defense, the Court
stated it did "not, however, mean to imply what rights or remedies might be available to either party in a situation where it is
established that a retirement plan is actuarially unsound. This is a matter beyond the issues of the present litigation.” See H
24 (citing Yeazell. 98 Ariz. at 117. 402 P.2d at 5461. But that is precisely the issue in this litigation; and whatever "rights or
remedies might be available," it is judicial abdication to preemptively foreclose them.
1J103 Because this case was decided on cross-motions for summary judgment, the trial court made no factual findings on
contract defenses. As this Court is not affirming the trial court's ruling that the change in employee contribution rates
violates the Pension Clause, and as the parties below fiercely contested the factual issues pertaining to contract defenses,
affirming the summary judgment is manifestly inappropriate. See Ariz. R. Civ. P. 56(a); see also Peterson v. Valley Nat
Rank of Phoenix. 90 Ariz. 361. 362. 368 P.2d 317. 318 (19621 (stating summary judgment inappropriate where there are
material contested issues of fact or where there is the slightest doubt as to the facts).
1131

IP
Rather than remand the issue for factual determination, the majority dons trial *1131 court robes to determine that
EORP and the State are "unable to prove that defense." Selectively reviewing the record, the majority finds that the Plan's
financial worries are attributable solely to EORP’s investment choices, and states that "disappointment about anticipated
investment returns does not qualify as a [mutual] mistake." See U 26. Not only that, but "the Plan's actuarial soundness is
within the Legislature's control," because it can always increase taxes and court fees, apparently ad infinitum. Id. In reality,
EORP presented evidence of a variety of causes, and did not learn until a 2010 audit that the Plan was severely unfunded.
Until then, all parties labored under the assumption that the Plan was actuarially sound — an assumption that proved to be
mistaken. By finding otherwise, the majority short-circuits the mistake of fact analysis that Yeazell expressly recognizes.

https://scholar.google.com/scholar_case?case=15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl-en&as_sdt-806

17/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
11105 The majority errs even more fundamentally by beginning and ending its analysis with Yeazell. Article 29, section 1 now
governs the contractual relationship regarding public employee pensions. Section 1 (C) very plainly states that although
benefits are sacrosanct, other parts of the pension contract are governed by the Contract Clause. We said as much in
Fields. 234 Ariz. at 2181117. 320 P.3d at 1164 ("The Contract Clause applies to the general contract provisions of a public
retirement plan, while the Pension Clause applies only to public retirement benefits."). As noted previously, we cannot
assume that the amendment's drafters were ignorant of past governing law and the significant change effected by the ballot
language. Our job is to enforce that language, not ignore it.
11106 But ignore it the majority does, justifying itself with the proposition, remarkable on multiple levels, that "analyzing
whether the Bill would pass review under the Contract Clauses were it not for Yeazell and the Gift Clause is unnecessary
and violates the principle of judicial restraint." See 1j 28. Article 29, section 1 governs public pensions. It does so in all, not
just some, of its particulars. Declining to apply all of its provisions is not judicial restraint but pick-and-choose jurisprudence.
11107 As we decided in Fields, public pension contract terms that are not benefits are subject to the Contract Clause.
Neither this Court nor the trial court made the requisite determination that the contribution rate changes violate the Contract
Clause; thus, remand is imperative. See State v. Brita. 158 Ariz. 121.124. 761 P2d 1025, 1028 f19881 ("It is highly
undesirable to attempt to resolve issues for the first time on appeal, particularly when the record below was made with no
thought in mind of the legal issue to be decided."). But even so, based on available facts and contrary to the majority's
conclusion, the record is quite clear that the changes constitute "a significant and legitimate public purpose," and that the
i.. 151 Ariz. at 491. 728 P.2d at 1241.
Averting a pension crisis and protecting the Plan's actuarial soundness are not only significant and legitimate, they are the
very essence of the constitutional guarantees the voters approved. The Plan members' contribution rate increases are
dwarfed by the increased taxpayer contributions. Senate Bill 1609 takes pains to not displace the state's obligations or to
raid pension funds. Based on the record, we would uphold the contribution rate changes under the Contract Clause (and
therefore under article 29, section 1 (C)). At the very least, we would remand to the trial court to determine this question in
the first instance.

III.
11108 If ever there were a case in which we should seriously indulge the presumption of statutory constitutionality, this is it.
The majority winks at that rule, then utterly fails to apply it. It repeatedly invokes the mantle of judicial restraint while
casually invalidating a statute designed to preserve the financial stability of a public employee pension plan, a purpose so
important that the voters made it part of our state's organic law.
11109 The majority opinion portends a huge financial windfall for the class members, a burden the taxpayers will shoulder.
1132 Under such circumstances, we should act with great restraint, lest the rule of law be undermined *1132 by a public
perception that this decision is of the judges, by the judges, and for the judges. On this important issue, the majority exhibits
no such restraint, and we therefore respectfully dissent.
□ Chief Justice Scott Bales, Vice Chief Justice John Pelander, and Justices Robert M. Brutinel and Ann A. Scott Timmer recused
themselves; pursuant to article 6, section 3 of the Arizona Constitution, the Honorable Randall M. Howe and the Honorable Kent E. Cattani,
Judges of the Court of Appeals, Division One; the Honorable Michael J. Butler, Judge of the Pima County Superior Court; and the
Honorable Patricia A. Trebesch, Judge of the Yavapai County Superior Court, were designated to sit in this matter.
Ill Th'S provision was subsequently amended by Laws 2016, S.C.R. 1019, § 1, effective May 26, 2016. This amendment pertains only to
the Public Safety Personnel Retirement System established by Chapter 38, Article 4.1, and thus does not affect the resolution of this case.
[2] The Class Members argue that even if the Bill does not violate the Pension Clause and Yeazell, it is still unconstitutional under the
Contract Clauses of the United States and Arizona Constitutions and the Judicial Salary Clause of the Arizona Constitution. See Ariz.
Const, art. 6, § 33; Ariz. Const, art. 2, § 25; U.S. Const, art. 1, § 10. We need not reach these arguments, however, because the Pension
Clause and Yeazell resolve the fundamental issues regarding the Class Members' rights to the benefit increases formula and the prior
contribution rate.
[3] The Class Members argue that because Fields held that the Bill's benefit increases formula provision was unconstitutional, the Bill is not
entitled to such a presumption. But Fields decided only the Bill's constitutionality with regard to retired judges and their entitlement to the
benefit increases formula. 234 Ariz. at 220-21 HIT 29, 34. 320 P,3d at 1166-67. The issue here is its constitutionality with regard to employed
judges and their entitlement to the benefit increases formula and the prior contribution rate.

https://scholar.google.com/scholar_case7case-15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&hl=en&as_sdt=806

18/19

1/23/2021

Hall v. ELECTED OFFICIALS'RETIREMENT PLAN, 383 P. 3d 1107 - Ariz: Supreme Court 2016 - Google Scholar
[4] EORP also claims that changes to the Class Members' pension contracts may be justified under the defense of "commercial
impracticability." As with the defense of mutual mistakes of fact, however, "mere market shifts or financial inability do not usually effect
discharge under the rule" of commercial impracticability. Restatement (Second) of Contracts § 261 cmt. b; accord id. at § 152 cmt. b
(recognizing that the same analysis applies for mutual mistakes of fact and commercial impracticability). Any defense of commercial
impracticability thus fails.
[5] The dissent contends that in ruling that EORP and the State are unable to establish the defenses of mutual mistake of fact and
commercial impracticability, we are usurping the trial court's role by improperly determining as fact that poor investment returns were the
cause of the Plan's alleged actuarial unsoundness. See infra
104-106. The dissent maintains that EORP and the State "presented
evidence of a variety of causes" and did not rely only on the Plan's poor investment returns. Id. This misunderstands the record and our
ruling.
In the pleadings and arguments before the trial court, EORP and the State did not present a "variety of causes" for the Plan's alleged
actuarial unsoundness; they presented two: the Plan's poor investment returns and the unsustainability of the former benefit increases
formula. These are actually the same cause, however. The former benefit increases formula was based on the Plan's investment returns,
see Laws 1998, ch. 264 § 1; Fields. 234 Ariz, at 216 II4. 320 P,3d at 1162. which is the very reason that EORP and the State allege it was
unsustainable. Thus, the claimed mutual mistake of fact or commercial impracticability — whether made forthrightly on poor investment
returns or obliquely on the unsustainability of the benefit increases formula — rests on investments returns. Because EORP and the State
as a matter of law cannot rely on poor investment returns to support their defenses, see Restatement (Second) of Contracts § 152 cmt. b;
id., § 261 cmt. b, our ruling is not improperly based on any factual determination, see Scottsdale Javcees v. Super. Ct.. 17Ariz.Apo. 571.
5.Z4.-499 P.2d 185,188 (1972) (holding that when the dispute is not with the facts but with "the legal conclusions to be drawn from" the
facts, the legal conclusions "are properly resolved by the court sitting in its capacity as judge and not in its capacity as a trier of fact.").
[6] The dissent asserts that a guaranteed annuity as of the date of retirement is not an accurate way to portray Class Members' retirement
benefits because "in reality, under EORP, the payments are made and calculated during employment, based not only on that particular
employees circumstances but the pension system as a whole.” But while calculating the funding needed for the public retirement system
admittedly requires a more complex actuarial model than this illustration, the shared funding obligations and fixed post-retirement payments
of this guaranteed annuity example are in fact similar to the relevant provisions of the Class Members' defined benefit pension.
[7] The retirement payment amount is similarly protected under the Pension Clause. Assuming (as § 38-810 specified) a fixed employee
contribution rate, a reduction in the post-retirement payment obligation would reduce the employer's funding share, thus diminishing the
employee's pension benefit in violation of the Pension Clause.
[8] The dissent asserts that the employee contribution rate specified by § 38-810 "has varied over time," and that the rate "has changed
multiple times over the years." In fact, the rate was changed only once: an increase from 6% to 7% in 1987, shortly after EORP was
created. A single statutory modification almost three decades ago — and over a decade before adoption of the Pension Clause — does not
establish that the rate is variable at the Legislature's will, much less that such modification comports with the strictures of the Pension
Clause. Nor does it foreclose the argument — not at issue here — that an employee hired with the promise of a 6% contribution rate would
be entitled to that rate notwithstanding the statutory change.
[9] This means that for ASRS members, who as the dissent acknowledges make up the overwhelming majority of state employees
(approximately 535,000 of 582,000), the contribution rate is not fixed as a specified percentage of the employee’s salary, but — consistent
with the statutory terms of the employment contract — can increase or decrease (just as the State’s rate can correspondingly go up or
down) depending on the amount needed to fund the overall ASRS pension fund.
[10] ASRS covers about 535,000 members, EORP has approximately 2,000, and PSPRS and CORP together have about 45,000. Id.
[11] A defined contribution plan does not provide a guaranteed benefit amount at retirement. Rather, employers and employees contribute
to a plan in which benefits are based on contributions plus or minus investment returns.
[12] The Gift Clause, in article 9, section 7 of the Arizona Constitution provides, "Neither the state, nor any... subdivision of the state shall
ever ... make any donation or grant, by subsidy or otherwise, to any individual, association, or corporation...."
[13] This provision is now codified in sections C and D of article 29, section 1 of the Arizona Constitution. See Laws 2016, S.C.R. 1019, § 1,
Prop. 124, approved election May 17, 2016, eff. May 26, 2016.
[14] We presume that the legislature (in this instance, the measure's drafters and the electorate) knows the prior law, and if it changes that
law, that it intends that those changes have real and substantial effect. See, e.g., Stone v. I.N.S.. 514 U.S. 386. 397,115 S.Ct. 1537,131
L.Ed.2d 465 (1995): Brousseau v. Fitzgerald. 138 Ariz. 453. 455. 675 P.2d 719 715 H9R41
'

Save trees - read court opinions online on Google Scholar.

https.//scholar.google.com/scholar_case?case-15466830232908639563&q=hall+v+elected+officials%27+retirement+plan&h!=en&as_sdt=806

19/19

EXHIBIT D
Arizona Attorney General Opinion

t

The Honorable Paul R. Messinger. 1983 Ariz. Op. Atty. Gen. 27 (1983)

1983 Ariz. Op. Atty. Gen. 27 (Ariz.A.G.), Ariz. Op. Atty. Gen. No. 183-034,1983 WL 42690
Office of the Attorney General
State of Arizona
183-034 (R83-028)
April 4,1983
*1 (Representative Messinger)—Public governing bodies may not contract with private corporations to provide law
enforcement personnel and services. [House of Representatives: opinion requests; Law Enforcement; Delegation of Authority;
Peace Officers; Public Safety, Department of; ARS32-2601; ARS32-2634; AG72-16; AG72-19; AG76-42; AG80-169]

The Honorable Paul R. Messinger
Arizona State Representative
State Capitol, House Wing
Phoenix, AZ 85007
Dear Representative Messinger:
We are writing in response your letter of January 17, 1983, in which you asked several questions regarding the ability of a
private corporation to provide law enforcement personnel and services to a municipality.
This issue has been discussed in two prior opinions of this office, both of which are attached for your information. In
Ariz.Atty.Gen.Op. 72-19, we said that a duly commissioned deputy sheriff may be paid with private funds, so long as the officer
is fully controlled by and answerable only to the sheriff. In Ariz.Atty.Gen.Op. 76-42, we said that a town's attempt to contract
with a private corporation for police services constitutes an illegal delegation of its authority to establish a police force. These
opinions remain valid.
The Legislature has granted the control of law enforcement exclusively to specific governing bodies, such as the state, counties,
cities, towns and designated agencies. Only a designated body can appoint or commission peace officers. State v. Ovens. 4
Ariz.App. 591, 422 P.2d 719 (1967); Ariz.Atty.Gen.Ops. 180-169, 72-16. Any attempt by the body to delegate its control,
direction and supervision would be illegal.1 See, e.g.. Godbev v. Roosevelt Sch. Dist, No. 66. 131 Ariz. 13, 638 P.2d 235
(Ct.App. 1981).
Sincerely,
BOB CORBIN
Attorney General
February 11, 1976
The Honorable Walter L. Henderson
Attorney, Town of Oro Valley
220 East Speedway Blvd.
Tucson, Arizona 85705
Dear Mr. Henderson:
The question pul forth in this opinion request is as follows:

litf ^0

WEST LAW W 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

By authority of Title 41, Article 8, Arizona Revised Statutes, is the Arizona Law Enforcement Officer Advisory Council
authorized to deny certification of a duly commissioned law enforcement officer solely upon the basis that the officers are paid
by a private corporation and are not on the payroll of the State of Arizona or a political subdivision thereof?

*2 The question results from action taken by the Arizona Law Enforcement Officer Advisory Council (hereafter ‘Council’)
on October 6, 1975. The Council had been asked to issue peace officer employment standards certification for six individuals
employed by the Metropolitan Fire Department, Inc., and assertedly commissioned as peace officers by the Town of Oro
Valley (hereafter ‘Town’). On October 6, 1975, the Council declined to issue such certifications and stated: ‘In reviewing the
applicable statutes and rules as they apply to Oro Valley's contractual arrangements for police officers, we have concluded that
the men listed on the enclosure are, in fact, employees of a private corporation. Therefore, we cannot pursue the A.L.E.O.A.C.
certification procedures for them.’
Because the Town of Oro Valley improperly commissioned and appointed the six individuals, the question above need not be
answered. The Council cannot consider the certification of the six individuals because they are neither peace officers nor police
officers, and the Council thus lacks authority to certify, qualify, regulate, or govern them in any way.

1. FACTS:
The Town of Oro Valley was incorporated in 1974, pursuant to Ariz.Rev.Stat. Ann. § 9-101 (as amended 1973).
On July 16, 1975, the Town entered into a contract with the Metropolitan Fire Department, Inc. (hereafter ‘Metropolitan’),
an Arizona corporation, wherein Metropolitan agreed to provide police services for the Town of Oro Valley. The Town has
authority to provide for policing per A.R.S. § 9-240(B)(12).
By resolution adopted on July 20, 1975, the Town Council then ‘appointed’ and ‘commissioned’ Stephen L. Hermann as Chief
of Police in and for the Town of Oro Valley, Arizona, ‘... to enforce the laws of the State of Arizona and the ordinances of the
Town of Oro Valley, and to exercise all of the powers of commissioned police officer in and for the Town of Oro Valley, and
to take all actions required by law to exercise the police function of the Town.’
Subsequently, the Town Council ‘appointed’ and ‘commissioned’ six full-time employees of Metropolitan to serve as regular
members of the Town's Police Department. (The Chief of Police is also a full-time employee of Metropolitan.) Apparently all
seven ‘members' of the Town's Police Department were placed on the Town's payroll at the rale of $1.00 per year, and were
issued checks in that amount. The Town has paid them no further stipends, but Metropolitan apparently does pay them salaries.

II. DISCUSSION:
There is no shortage of definitions of ‘peace officer’ and ‘law enforcement officer’ in the Arizona Revised Statutes. A.R.S.
§ 1-215 states that:
In the statutes and laws of the state, unless that context otherwise requires ...

20. ‘Peace officers' means Sheriffs of counties, constables, marshals, and policemen of cities and towns.

A.R.S. § 9-901 sets out the following:
In this article [chapter S, Police and Fire Departments; article 1, Minimum Wages], unless the context otherwise requires:

W£STLAW V' 2020 Thomson Reuters. No claim to original U S. Government Works.

2

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

*3 3. ‘Peace officers' include regularly salaried deputy sheriffs, policemen and police officers of duly organized police
departments.

A.R.S. § 38-1001 says:
In this chapter [chapter 7, Merit Systems], unless the context otherwise requires:

***

4. ‘Law enforcement officer means:

***

(b) A regularly employed police officer in a city or town.

[NOTE: This definition also applies to the statute mandating overtime compensation for ‘person(s) engaged in law enforcement
activities'. A.R.S. § 23-392]

While neither term is defined in the statutes regarding the Council [Title 41, Article 8], the Council by regulation defines ‘peace
officer’ as a ‘member of a law enforcement unit who is employed to enforce the criminal laws of, and is commissioned by, a
city...’[A.C.R.R.R 13-4-01(2)].
The Arizona appellate tribunals have not had occasion directly to determine who can and cannot be denominated a ‘peace
officer.’ However, the term ‘public officer’ in A.R.S. § 13-541 and its predecessor has been construed, and the constructions
are important because State v. Arce. 6 Ariz.App. 241,245 (1967), has held that a police officer is a public officer. In State v.
Kurtz. 78 Ariz. 251 (1954), the Supreme Court held that in undertaking certain off-duty actions, several city police officers
were indeed acting as ‘public officers' and not as private citizens. The Court posited this test: ‘[W]ere the officers acting in
vindication of public right and justice, or were they merely performing acts of service to their private employer?’ 78 Ariz. at
218. In applying the test, the Court found it significant that ‘it manifestly appealed] from the record that at the time of the
incident in question the [private employer] had no right of supervision over these officers, nor did he attempt any such control.’
Id. And in State v. Ovens. 4 Ariz.App. 591 (1967), the Court of Appeals held that county attorney's investigators were not
peace (ergo, public) officers. The Court found that although the investigators had been administered oaths as deputy sheriffs
and had been given cards that stated they-were ‘regularly appointed’ deputy sheriffs, they were not bona fide deputies and thus
not public officers. The Court stated:
It is our opinion that one of the vital elements in relation to being a defacto deputy sheriff is the matter of instructions from and
control by the Sheriff or by some law enforcement or security organization or agency. 4 Ariz.App. at 596.

Wt-STlAW

2020 Thomson Reuters. No claim to original U.3. Government Works

The Honorable Paul R. Messinger. 1983 Ariz. Op. Atty. Gen. 27 (1983)

It is within these statutory and judicial pronouncements that the peace officer status vel non of six ‘members' of the Town's
police department must be decided. It is the conclusion of this office that under the circumstances, the six individuals do not
enjoy peace officer status.
No reported case has discussed the manner in which towns may exercise the authority ‘to establish and regulate the police of the
town, to appoint watchmen and policemen, and to remove them and to prescribe their powers and duties.’ A.R.S. § 9-240(B)
(12). This authority—along with the authority to undertake 28 other categories of activity set out in the statute—is permissive:
‘The common council shall have the power ...’ A.R.S. § 9-240(B). But there are compelling reasons for concluding that once
a town opts to exercise power in compliance with subsection 12, it must exercise the power fully, and may not cede authority
to a private organization. What the Town seeks to do is to ‘establish’ its police force, and to ‘appoint policemen’ but then to
permit Metropolitan to ‘regulate the police’, and to ‘remove them’, and to ‘prescribe their powers and duties.’ Such a grant of
authority must be voided for contravening public policy.
*4 The discursive opinion of the Court of Appeals in Board of Education v. Scottsdale Education Association. 17 Ariz.App.
504 (1972) was vacated by the Supreme Court, for reasons not pertinent to this issue, at 109 Ariz. 342 (1973). In that opinion,
the Court concluded a School Board could not validly give up the responsibility of controlling and managing school district
affairs, nor could the Board surrender its discretion in the exercise of that responsibility. The Court thereupon voided a collective
bargaining agreement that effectively had done both. The Court grounded its view on highly persuasive authority from other
jurisdictions:
‘[T]he employer-employee relationship in government is a legislative matter which may not be delegated. Such [collective
bargaining] contracts if permitted to stand would result in taking away from a municipality its legislative power to control its
employees and vest such control in an unelected and uncontrolled private organization ...’ 17 Ariz.App. at 510, quoting Fellows
v. Latronica, 377 P.2d 547, 550 (Colo. 1962).
‘Under our form of government, public . .. employment never has been and cannot become a matter of bargaining and contract.
* * * This is true because the whole matter of qualifications, tenure, compensation and working conditions for any public
17 Ariz.App. at 510, quoting City of Springfield v. Clouse, 206
service, involves the exercise of legislative powers.
S.W.2d 539, 545 (Mo. 1947).
ik

^^

The Court of Appeals also cited Arizona authority:
‘A public office is considered a public agency or trust, created in the interest and for the benefit of the people, i.e., public
officers are servants of the people, * * * A public officer may not agree to restrict his freedom of action in the exercise of his
powers, 43 Am. Jr. Public Officers § 295, and an agreement which interferes with his unbiased discharge of his duty to the
public, in the exercise of his office, is against public policy and unenforceable.’ * * * School District No. 69 v. Altherr, 10
Ariz.App. 333, 338 (1969).

A fortiori, a Town Council, may not agree to transfer regulation, supervision and control over the absolutely vital function of
enforcing the law and preserving the peace to a private agency responsible only to its stockholders.
There is no conflict between this opinion and this office's most recent pronouncement on the general topic of peace officer
status. In Department of Law Opinion No. 72-19, we found no impediment to peace officer status when a deputy sheriffs salary
derived from private funding; but the deputy was otherwise properly trained, qualified, supervised, directed and controlled in
his official endeavors by the sheriff. That opinion held that ‘where private corporations seek to assist a county in funding another
law enforcement officer which they [sic] could not otherwise afford, and where said officer is otherwise a duly appointed and
fully controlled, regular deputy sheriff, responsible only to the sheriff for his work direction, [then] such a deputy is a ‘peace
officer’ . . .'
Sincerely,

WESTtAW © 2020 Thomson Reuters. No Naim to original U.3. Government Works.

4

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

*5 (illegible signature)
Attorney General
JOHN A. LASOTA, JR.
Chief Assistant
Attorney General
June 29, 1972
DEPARTMENT OF LAW OPINION NO. 72-19 (R-51)
REQUESTED BY: JAMES J. HEGARTY
Secretary-Treasurer, Arizona Law
Enforcement Officers Advisory Council
QUESTION: Does the source of funding affect the peace officer status of an otherwise duly appointed and full time deputy
sheriff?
ANSWER: No. See body of opinion.
In Department of Law Opinion No. 70-24, the Attorney General responded to a similar question from the Arizona Law
Enforcement Officers Advisory Council in regard to the status of a civil deputy sheriff as a peace officer. The conclusion reached
there was as follows:
... [I]t is the opinion of this office, because of the aforementioned authorities, any title or position involving the use of the term
‘Deputy Sheriff’ is required to be occupied by a properly trained and qualified peace officer.
That opinion further noted that the term ‘peace officer’ contemplates some regular assignment to arduous and hazardous duty.
A.R.S. § 38-842.10. Police Pension Board of City of Phoenix v. Warren. 97 Ariz. 180, 398 P.2d 892, rehearing denied, 97 Ariz.
301,400 P.2d 105 (1965).
Since Opinion No. 70-24 did not speak directly to the source of funding, particularly funding by non-governmental agencies,
some further discussion is needed. Initially, we should note several other statutory definitions bearing upon this problem.

§ 1-215. Definitions
In the statutes and laws of the state, unless the context otherwise requires:

20. ‘Peace officers' mean sheriffs of counties, constables, marshals and policemen of cities and towns.

W6STLAW © 2020 Trmmson Routers. No

n m ongsnai U.S. Government Works.

5

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

§ 38-1001. Definitions
In this chapter [Chapter 7.—Merit Systems], unless the context otherwise requires:

4. ‘Law enforcement officer’ means:
(a) A regularly appointed and paid deputy sheriff of a county.

§ 9-901. Definitions
In this article [Article 1. Minimum Wages, Chapter 8.—Police and Fire Departments], unless the context otherwise requires:

j}: sfc -sfc

3. ‘Peace officers' include regularly salaried deputy sheriffs, policemen and police officers of duly organized police departments.

In connection with A.R.S. § 9-901, we should also take note of A.R.S. § 9-903, as follows:
This article shall not be construed to apply to a person holding a courtesy or honorary commission in the police, peace officers or
fire forces of a city or town, or to persons not appointed in accordance with the rules, regulations, ordinances, charter provisions
or statutes concerning appointments to the police, peace officers or fire department to which appointment is claimed, or to those
officers employed in part time service.
(All emphasis added.)
It seems that two of the three definitions quoted above, i.e., A.R.S. §§ 38-1001 and 9-901, contemplate regular salary as
well as regular appointment. Thus, for the purposes of the merit system and for minimum wages of police departments, the
source of funding would affect at least the economic , status of the peace officer. However, this is probably not true as a general
proposition. A.R.S. § 1-215.20 includes sheriffs as ‘peace officers' for general purposes of Arizona law, but deputies are not
specifically mentioned. Nevertheless, as noted in Opinion No. 70-24, deputy sheriffs are ‘generally thought to be possessed
with full authority to perform every act the sheriff, his principal, could perform. [Citing authorities.]’
*6 The Arizona Law Enforcement Officers Advisory Council is concerned about the status of deputy sheriffs because of the
provisions of A.R.S. § 41-1822, which states that the Council shall prescribe ‘reasonable minimum qualifications for officers
to be appointed to enforce the laws of this state and the political subdivisions thereof.1’ A.R.S. § 11-409 provides the methods
by which deputy sheriffs are appointed:
The county officers enumerated in § 11-401 may, by and with the consent of. and at salaries fixed by the board, appoint deputies,
stenographers, clerks and assistants necessary to conduct the affairs of their respective offices. The appointments shall be in
writing, and filed in the office of the county recorder. (Emphasis added.)
• But even where a written appointment was not recorded, our Supreme Court has held that a deputy sheriff is not deprived of de
■ facto status as a public officer. State v. Stago. 82 Ariz. 285. 312 R2d 160 119571.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

G

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

In State v. Stago. supra. Ernest Dillon charged the defendant with resisting and obstructing a public officer. Dillon had been
appointed by the Sheriff of Navajo County as a deputy sheriff and issued a card confirming the appointment. However, Dillon
was not paid by the county nor was his appointment recorded. He was paid by the Pinetop Merchant Patrol and wore a police
officer's unifonn. Since the appointment had not been properly filed, the Court held that Dillon was not a de jure public officer.
However, for the purposes of the offense of resisting or obstructing a public officer, he was held to be a de facto public officer.
This conclusion seems to have been based on two major points: (1) The statute requiring filing of written appointment was
directory; and (2) the Navajo County Board of Supervisors had accepted a $1,000.00 bond executed by Dillon to faithfully
perform the duties of a deputy sheriff.
It should also be noted that in the context of the offense of resisting or obstructing a public officer, a police officer is a public
officer. State v. Kurtz. 78 Ariz. 215. 279 P.2d 406 (1954): State v. Arce. 6 Ariz.App. 241.431 P.2d681 (1967).
State v. Kurtz, supra, is another case that aids in answering the Council's main question. There the Court was concerned with
the issue of whether duly appointed and acting city policemen, when privately paid and employed during off duty hours, as
special officers to maintain order and keep the peace at a dance hall, were ‘public officers' within the obstructing a public officer
statute. The Court decided that the turning point for this issue was whether the officers were ‘performing mere acts of service
for their private employer’ or ‘were acting in vindication of the public right in apprehending a wrongdoer.’ 78 Ariz. at 219.
State v. Ovens. 4 Ariz.App. 591, 422 P.2d 719 (1967), is another case involving the status of a deputy sheriff paid by someone
other than the sheriff as a peace officer. There the Court noted that a person must be a peace officer to be authorized to serve
a warrant. A.R.S. §§ 1-215.20 and 13-1407. The Court held that two county attorney investigators who had been appointed
by the county attorney as deputy sheriffs were not de facto deputy sheriffs nor peace officers. Neither the holding of a deputy
sheriff card nor inclusion in a false anest rider on the county's public liability insurance policy were sufficient to accomplish
this either. The Court also made the following relevant comment:
*7 It is our opinion that one of the vital elements in relation to being a de facto deputy sheriff is the matter of instructions from
and control by the Sheriff or by some law enforcement or security organization or agency. ... 4 Ariz.App. at 596.
This same idea of instruction and control is carried out to some extent in still another statutory definition of the term ‘peace
officer’ as follows:

§ 41-1701. Definitions

In this chapter [Chapter 12.—Public Safety], unless the context otherwise requires:

5. ‘Peace officer’ means any personnel of the department designated by the director as being a peace officer under the provisions
of this chapter.

Although this definition does not have specific application to deputy sheriffs, it is interesting to note that the statutes relating
to the Arizona Law Enforcement Officer Advisory Council appear in this same chapter, thus making the definition applicable
to those statutes.
The above statutes and cases, reviewed in light of the facts here, where private corporations seek to assist a county in funding
another law enforcement officer which they could not otherwise afford, and where said officer is otherwise a duly appointed
and fully controlled, regular deputy sheriff, responsible only to the sheriff for his work direction, clearly indicates that such a
deputy is a ‘peace officer’ and must meet the minimum standards.

WESTlAW © 2020 Thomson Reuters. No claim to orairai ITS. Government Works.

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

As was alluded to earlier, this opinion does not cover any other relationship which might be governed by the source of salary,
i.e., merit system, retirement system, or insurance benefits or coverage. The only question posed and answered is as to the
‘peace officer’ status of a deputy so employed.
Respectfully submitted,
GARY K. NELSON
The Attorney General

Footnotes
In connection with this issue, we note the Legislature's treatment of privately controlled security guard services. A.R.S. §§ 32-2601 et
seq.. permit the establishment of security guard services by private persons or organizations. However, A.R.S. § 32-2634 specifically
and unambiguously withholds peace officer status from a security guard. Thus, although the Legislature will permit private security
forces, it specifically has reserved the management of public law enforcement to public governing bodies of this state.

1983 Ariz. Op. Atty. Gen. 27 (Ariz.A.G.), Ariz. Op. Atty. Gen. No. I83-034,1983 WL 42690
End of Document

WESTLAW

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2020 Thomson Reuters. No claim to original U.S. Government Works.

8

EXHIBIT E
STATE v. JACOBSEN

141 Ariz. 421 (1984)
687 P.2d 946

In the Matter of 1976 PORSCHE AUTOMOBILE NEW MEXICO LICENSE NO. BNE-532 VIN:

xxxxxxxxxx
The STATE of Arizona, Plaintiff/Appellee,
v.
Scott JACOBSEN, Defendant/Appellant.
No. 2 CA-CIV 4936.
Court of Appeals of Arizona, Division 2.
June 25, 1984.
Stephen D. Neely, Pima County Atty. by Michael P. Callahan, Deputy County Atty., Tucson, for plaintiff/appellee.
422

*422 Scott Jacobsen, in pro. per.
OPINION
HATHAWAY, Judge.
This appeal is from a February 11,1983, judgment to retain a 1976 Porsche automobile as a result of forfeiture proceedings
filed under A.R.S. § 13-3409(A)(3).
The facts show that appellant was allegedly involved in two drug transactions in Pima County in May 1982. The Porsche
automobile was allegedly used by appellant to transport the narcotics in Tucson on those dates. Appellant was not arrested
following the transactions, but rather he returned to New Mexico while negotiations for larger transactions ensued. Tucson
police officers and appellant arranged a sale of $1,000 worth of methamphetamines, the sale being consummated on May
25, 1982, in Albuquerque. At this point, a laboratory for the manufacture of narcotics was seized, appellant and others were
arrested and federal narcotics prosecutions were instituted. The vehicle in question was seized on June 14, 1982, in
Albuquerque by the Albuquerque Police Department at the request of the Tucson Police Department, and was delivered to
the Tucson Police Department. Forfeiture proceedings were instituted two days later when an order was issued by Pima
County Superior Court Judge William Sherrill authorizing the retention of the automobile. Pleadings were thereafter filed by
the state and eventually responsive pleadings were filed by appellant, which were stricken as untimely. A default judgment
was eventually entered along with the judgment to retain the vehicle.
Preliminarily, the state has argued that appellant was correctly denied relief below since he failed to timely raise his
challenge to the proceedings, citing In the Matter of 1969 Ford Truck I.D. No. E14AHD34733, License No. 2 CB-870, 122
Ariz. 442, 595 P.2d 674 (App. 1979). However, in that case, the appellant was advancing an illegal search and seizure
argument in the motion to suppress and was therefore bound by the 20-day requirement of Rule 16.1(b), Rules of Criminal
Procedure, 17 A.R.S. Here, appellant has challenged the jurisdiction of the court to conduct the forfeiture proceeding. Lack
of subject matter jurisdiction may be raised at any time and is not subject to the 20-day limitation of Rule 16.1(b).
Appellant's jurisdictional argument was that, since Arizona improperly gained control of the automobile by requesting its
seizure outside of its territorial limits by another law enforcement agency, the forfeiture proceedings were void and the
automobile should be returned to him. The basic prerequisite to the court's exercise of jurisdiction is its actual or
constructive possession of the property being subjected to the forfeiture proceeding. Strong v. United States. 46 F.2d 257
(1st Cir, 1931). However, courts are divided as to whether an illegal or unauthorized seizure precludes a court from
exercising jurisdiction.
One line of decisions has held that the illegality of the seizure has nothing to do with the question of jurisdiction, since the
owner of the property suffers nothing which he would not have suffered if the seizure had been lawful. Dodae v. United
States. 272 U.S. 530. 47 S.Ct. 191. 71 L.Ed. 392 (19261: United States v. One Ford Coupe Automobile. 272 U.S. 321.47
S.Ct. 154, 71 L.Ed. 279 (1926); Boyd v. United States. 116 U.S. 616. 6 S.Ct. 524. 29 L.Ed. 746 (18861: State v. Four Bell

F™jLQy™.Al9Lty$£!?jn?.$:Some cases have reasoned that if the res is within the
jurisdiction at the time the proceeding is initiated, the government is, in effect, adopting the seizure and proceeding thereon
by legal process and the action is no less valid than when the seizure is by authority originally given. See United States v
Dodge Truck, 23 F. Sudd. 582 fW.D.Pa. 1938V. cf. Cook v. United States. 288 U.S. 102. 53 S.Ct. 305. 77 L.Ed. 641 M9331
(recognizing this principle, but finding it inapplicable where beyond the territorial limits placed upon the government's
authority by treaty).
423

In Dodge v. United States, supra, the court was presented with a seizure of a motorboat by state officers for violation of *423
the National Prohibition Act. The state officers were not authorized by the act to make the seizure. The court held that
where the seizure was made by one having no authority to do so, the government could nevertheless adopt the seizure with
the same effect as if it had been originally made by one duly authorized, reasoning that "the jurisdiction of the court was
secured by the fact that the res was in the possession of the [party authorized to seize] when the libel was filed." 272 U.S. at
532.47 S.Ct. at 192.
It has been pointed out that both Mr. Justice Holmes in Dodge v. United States, supra, and Mr. Justice Brandeis in United
States v. One Ford Coupe Automobile, suora. were apparently paraphrasing Mr. Justice Story's opinion in The Caledonian.
4 Wheat (17 U.S.) 100, 103. 4 L.Ed. 523 (1819). for the proposition that a forfeiture proceeding "quite basically involves the
in rem jurisdiction of a court of the United States and that it makes very little difference to any one how initial possession of
the res was obtained, so long as the proceeding to enforce the forfeiture accords with due process." United States v. One
1963 Cadillac Coupe de Ville Two-Door. 250 F. Sudd. 183.186 (W.D.Mo. 19661. In the present case, appellant received
notice of the proceedings and did eventually appear, and no due process argument is made.
A case close to the factual posture of the instant one was decided by the Ninth Circuit in United States v. One 1977
Mercedes Benz, 450 SEL, VIN XXXX-XXXXXXXXXX, 708 F.2d 444 (9th Cir.1983). There the claimant-owner of the
automobile argued that the seizure by federal officers was improper as it infringed on the authority of the State of California.
She maintained that because forfeiture is an in rem action, the district court's jurisdiction rested on seizure of the res and if
the res were improperly before the court, the court lacked jurisdiction to enter a forfeiture order. The court found the
question disposed of in United States v. One 1971 Hariev-Davidson Motorcycle. 508 F.2d 351 (9th Cir. 19741 There, the
government had seized a motorcycle for forfeiture without a warrant under circumstances the court found illegal. The court
rejected the argument that "an object illegally seized cannot in any way be used ... as the basis for in rem jurisdiction." 508
F.2d at 351. The court in One 1977 Mercedes Benz, supra, cited Dodoe v. United States, supra, to support its holding and
found the jurisdiction of the trial court was proper despite any irregularities in the automobile's seizure. A similar result, that
the mere presence of the res within the jurisdiction is enough to support the court's jurisdiction, was reached in People v.
One 1949.Cadillac Convertible Coupe. 113 Cal. App.2d 115. 247 P.2d 848 (1952V citing Harrington v. Superior Court. 194
Cal. 185: J.2.§..f:..l5...(.1924). and Samosell v. Superior Court. 32 Cal.2d 763. 197 P,2d 739 (19481. See also People v. One
1951 Chevrolet 2-Door. 157 Cal. App.2d 301. 320 P.2d 881 (19581.
Opposed to these cases are decisions which reject the ability of the court to acquire jurisdiction over a res or a person
where it has been acquired as the result of the government's deliberate, unnecessary and unreasonable invasion of the
accused's constitutional rights." United States v. Toscanino. 500 F.2d 267. 275 (2nd Cir.19741. The court there reasoned
that its conclusion "represents but an extension of the well-recognized power of federal courts in the civil context to decline
to exercise jurisdiction over a defendant whose presence has been secured by force or fraud." 500 F.2d at 275. See In re
Johnson,.167 U.S. 120, 17 S.Ct. 735. 42 L.Ed. 103 (18961: Fitzgerald Construction Co. v. Fitzgerald. 137 U.S. 98. 11 S.Ct.
36,34.LEd, 608 (1890). In United States v. One 1949 Model Ford Coach Automobile. 101 F. Sudd, 492 (D.S.C. 19511. the
court ruled that where the automobile was seized illegally, no forfeiture could be had. Similarly, a forfeiture was dismissed in
United States v. One 1949 Buick Sedanette. 112 F. Sudd. 218 fD.Mass. 1953V
Other cases have taken the position that if the statute authorizing forfeitures expressly establishes a procedure for seizing
the property to be forfeited, failure to comply with the procedure would preclude the forfeiture. United States v. Four

424

Thousand *424 One Hundred and Seventy One Dollars ($4.171.00) in United States Currency. 200 F. Supp. 28 (N.D.III.
l§61).i Slate v. R<^a/t^20ormj^399. 199 A.2d 575 (1963): State v. Ford Touring Car. 117 Me. 232. 103 A, 364 (1918):
State v. Intoxicating Liguors. 110 Me. 260., 85.A.,1060 (1913): State y.Soiritous Liquors. 75 N.H! 273. 73 A. 1697l909V
State v. Certain Liquors, 21 R.l. 531, 532, 45 A. 552 (1900); UMl^WLQontrviCo!Thj^yoo!^,j97UML251,93P2^AM.
(1939)- In State vJntpxicatma_Liguors. supra, the court stated:

"If there was no legal seizure, then there could be no judgment of forfeiture. The very foundation of forfeiture
is a legal seizure; until this is had, no further proceedings are authorized.' [Citations omitted]” 85 A. at 1061.
The cases are compiled in the annotation of 8 A.L.R.3d 473, under the lead case of Berkowitz v. U.S.. 340 F.2d 168 fist
Cir.1965), which held that the government could not enforce a forfeiture of money and checks on the ground that the items
had been used in violation of internal revenue laws, where the government had seized the property by an invasion of the
constitutional rights of the person from whom the property had been seized incident to an unlawful arrest. The court,
refusing to allow "the Governmental violators of the Constitution" to "enrich the Treasury by their defiance of fundamental
liberties," applied exclusionary rule reasoning referred to, but not followed, by Mr. Justice Holmes in DodgevJJnjtedStates,,
supra.
We are persuaded that the general rule is that the governmental authority has the power to enforce a forfeiture regardless
of how control was obtained over the property. See United States v. FA/ Taivo Maru. Number 28 SOI Finn 898 F Smdq, 413
.(□•Me. 1975). However, our legislature has chosen to follow the minority rule which requires a lawful seizure of the res.
Forfeitures under A.R.S. § 13-3409 are required to be accomplished in accordance with the procedure set forth in A.R.S. §
13-106, which provides in part:
"B. Property subject to forfeiture pursuant to chapter 34 of this title may be seized by a peace officer upon
process issued by any court having jurisdiction over the property. Seizure without process may be made if
any of the following apply:
1. The seizure is incident to any arrest or any lawful search or seizure or an inspection under the
administrative inspection warrant.
2. The seizing officer has probable cause to believe that the property subject to seizure has been the subject
of a prior judgment in favor of this state and the seizing officer has probable cause to believe that the
property will be destroyed or removed from the jurisdiction of the state before a warrant can be obtained.
3. A peace officer has probable cause to believe that the property is directly or indirectly dangerous to health
or safety and that harm may occur before a warrant can be obtained.
4. A peace officer has probable cause to believe that the property was used or is intended to be used in an
offense and that the offense will occur or the property will be removed from the jurisdiction of the seizing
agency before a warrant can be obtained."
It is clear that the property can only be seized pursuant to a court order, unless one of the enumerated exceptions applies,
which is not the case here. Indeed, § 13-106(B)(1) contemplates a seizure pursuant to a lawful search or seizure. Since
Arizona has aligned itself with those jurisdictions which authorize forfeiture proceedings only where the res is properly
brought before the court, we also follow the cases which void the proceeding when the seizing authority has disregarded the
statutory requirements for forfeiture. Therefore, the forfeiture order is vacated as having been entered without jurisdiction.
BIRDSALL, C.J., and HOWARD, J., concur.

Save trees - read court opinions online on Google Scholar.

/

EXHIBIT F
In the MATTER OF GREEN

Matter of Green, 67 N.C.App. 501 (1984)
313 S.E.2d 193

^Signature of party
Pleading
^Necessity for Verification and Effect of
Omission

67 N.C-App. 501
Court of Appeals of North Carolina.
In the Matter of Sonya Renee GREEN, DOB
XX/XX/XX.

Where it is required by statute that a petition be
signed and verified, such essential requisites
must be complied with before the petition can be
used for legal purposes; without compliance, the
petition
is
rendered
incomplete
and
nonoperative.

No. 8221DC1287.
April 3,1984.

Synopsis
County protective service worker filed petition in which it
was alleged that child was abused and neglected. The
District Court, Forsyth County, Abner Alexander, C.J.,
entered order concluding that the child was an abused and
neglected juvenile, placing legal custody of the child with
county department of social services, placing physical
custody with the child’s mother, and ordering further
relief. The child’s mother and stepfather appealed. The
Court of Appeals, Johnson, J., held that: (1) the mother
and stepfather could raise for first time on appeal issue of
trial court’s subject-matter jurisdiction, and (2) trial court
lacked subject-matter jurisdiction where the county’s
petition was not duly signed and verified as required by
law.

4 Cases that cite this headnote

U1

Infants
-=»Pleading
Primary purpose to be served by a signature and.
verification on part of petitioner alleging that a
child is abused or neglected is to obtain the
written and sworn statement of the facts alleged
in such official and authoritative form as that it
may be used for any lawful purpose, either in or
out of a court of law, and, under the juvenile
code, such requirements serve to invoke the
jurisdiction of the court. G.S. § 7A-517(1, 21).

Vacated and dismissed.

5 Cases that cite this headnote
West Headnotes (9)
[il

|2]

Pleading
>Signature of party
Pleading
-^Necessity for Verification and Effect of
Omission

Ml

Infants
—Pleading

In the absence of a statutory requirement or rule
of court to the contrary, it is ordinarily not
necessary to the validity of a petition that it be
signed or verified.

Failure of county protective service worker to
sign and verify, before an official authorized to
administer oaths, petition alleging that a child
was abused and neglected, rendered the petition
fatally deficient and inoperative to invoke
jurisdiction of the court over the subject matter.
G.S. § 7A—517(1. 21).

2 Cases that cite this headnote

10 Cases that cite this headnote

Pleading __________________
• i-Sfl aw

-t> 2013 Thomson Reuters. No claim to ordinal ij.S. Government '.Works.

Matter of Green, 67 N.C.App. 501 (1984)
3lTs!E~2cM93
isi

Trial court’s verbatim recitations of testimony
did not constitute findings of fact. Rules
Civ.Proc., Rule 52(a), G.S. § 1A-1.

Courts

>Jurisdiction of Cause of Action
Courts
v-Waiver of Objections
Courts
j=>Time of making objection

38 Cases that cite this headnote

Jurisdiction of a court over subject matter of an
action is the most critical aspect of the court’s
authority to act;,, a.,defense, based upon lack of
such jurisdiction cannot be waived and may be
assertej^at„anjrtime.

Infants
^Issues and questions in lower court in general
Mother and stepfather of child whom county
protective service worker alleged was abused
and neglected could raise issue of jurisdiction
over subject matter of the petition for the first
time on appeal although they initially failed to
raise the issue before the trial court. G.S. §
7A-517(1,21).
1 Cases that cite this headnote

m

3 Cases that cite this headnote

*502 **194 This proceeding was commenced with the
filing of a petition by Charles Martin, a Protective Service
Worker with the Forsyth County Department of Social
Services. It was alleged in the petition that Sonya Renee
Green was an abused child as defined by G.S. 7A-517(1)
and a neglected child as defined by G.S. 7A-517(21). The
petition set forth facts in support of each allegation;
however, the petition was neither signed nor verified.

Infants
> Pleading

At the time of the filing of the petition, the minor child
was living with the movants. Mildred Joe is the biological
mother of the minor child and Malachi Joe is her
stepfather.

Trial court lacked jurisdiction over subject
matter of county protective service worker’s
petition which alleged that a child was abused
and neglected where the petition was not duly
signed and verified as required by law. G.S. §§
7A—517(1), (1), par. c, (21), 7A-544,
7A-561(b).

At the call of the case for hearing and prior to the
introduction of any evidence, the Joes moved to have the
petition dismissed on the grounds the petition, issued
pursuant to G.S. 7A-544 and G.S. 7A—561(b), was not
signed as required by those statutory provisions. The
motion was denied.

7 Cases that cite this headnote

l«l

Trial

^Separate Statement of Facts and Law
Where trial judge sits without jury, the judge is
required to find facts specially and state
separately his conclusions of law thereon and
direct entry of appropriate judgment. Rules
Civ.Proc., Rule 52(a), G.S. § 1A-1.

3 Cases that cite this headnote

l«l

l»l

Following a hearing on the petition pursuant to G.S.
7A-516, et seq., the court made findings of fact and
concluded as a matter of law that Sonya Renee Green is
an abused juvenile as defined by G.S. 7A-517(l)(c) and a
neglected juvenile as defined by 7A-517(21). The court
then entered an order which directed that:

Trial

.-“Sufficiency in General
0 70'8 T.'omson Reuters. .

1. Legal custody of Sonya Renee Green is hereby
placed with the Forsyth County Department of
c:nm to oriiirei U 3. Gover'in-mt

Matter of Green, 67 N.C.App. 501 (1984)
313 S.E.2d 193
~
Social Services.
2. Physical custody of Sonya Renee Green is hereby
placed with her mother, Mildred Joe, who is
responsible for protecting the minor from any further
acts of abuse or neglect.
3. The Forsyth County Department of Social
Services is to make regular home visits to insure the
safety and wellbeing of the minor child.
4. Malachi Joe and Mildred Joe are to actively
participate in family counseling with Sonya Renee
Green and they are to fully cooperate with the
Forsyth County Department of Social Services and
any other agency employed to help Sonya Renee
Green.
*503 From the order and rulings of the court, Mildred and
Malachi Joe appealed.
Attorneys and Law Firms
Kennedy, Kennedy, Kennedy & Kennedy by Annie
Brown Kennedy, Willie M. Kennedy and Harvey L.
Kennedy, Winston-Salem, for appellants.
Brace E. Colvin, Winston-Salem, for petitioner-appellee.
Opinion
JOHNSON, Judge.
By their first assignment of error, appellants contend the
trial court erred in the denial of their motion to dismiss on
the ground that the petition was not signed. Appellants
also contend that the trial court was without jurisdiction in
that the petition was neither signed nor verified.
The appellee admits that the petition is neither signed nor
verified, but insists that appellants suffered no harm by
lack of the petitioner’s signature on the petition and that
the lack of a verification is immaterial. Further, that the
issue of verification was waived by appellants by their
failure to raise it before the trial judge. We disagree.
111 In the absence of a statutory requirement or rale of
court to the contrary, it is ordinarily not necessary to the
validity of a petition that it be signed or verified. See State
v. Higgins, 266 N.C. 589, 146 S.E.2d 681 (1966)
(affidavit referred to in warrant charging defendant upon
information and belief with assault is not defective
because affiant did ncrtsubscribe the affidavit); Alford v.

McCormac, 90 N.C. 151 (1884) (affidavit is valid despite
lack of affiant’s subscription if the oath was administered
by one authorized to administer oaths).
On the other hand, where it is required by statute that
the petition be signed and verified, these essential
requisites must be complied with before the **195
petition can be used for legal purposes. See Alford v.
McCormac, supra. Without compliance, the petition is
rendered incomplete and nonoperative. See In re Colson,
14 N.C.App. 643, 188 S.E.2d 682 (1972) (juvenile
delinquency petition must be signed and verified as
“required by law”).
The petition in this case was instituted under Juvenile
Code provisions which state in clear and concise terms
that the petition *504 shall be signed and verified before .
an official authorized to administer oaths. G.S. 7A-544
provides in pertinent part that when a report of abuse or
neglect is received, the Director of the Department of
Social Services shall sign a complaint seeking to invoke
the jurisdiction of the court. G.S. 7A-561(b) also provides
in pertinent part that the complaint should be filed as a
petition and the petition shall be verified before an
official authorized to administer oaths.
131 The Juvenile Code requisites that the petition be signed
and verified are therefore essential to both the validity of
the petition and to establishing the jurisdiction of the
court. The primary purpose to be served by signature and
verification on the part of the petitioner is to obtain the
written and swom statement of the facts alleged in such
official and authoritative form as that it may be used for
any lawful purpose, either in or out of a court of law. See
Alford v. McCormac, supra at 153. Under the Juvenile
Code, these requirements also serve to invoke the
jurisdiction of the court.
HI [51 [6]

In the case sub judice, the failure of the petitioner
to sign and verify the petition before an official
authorized to administer oaths rendered the petition
fatally deficient and inoperative to invoke the jurisdiction
of the court over the subject matter. It is elementary that
the jurisdiction of the court over the subject matter of the
action is the most critical aspect of the court’s authority to
act. See Shuford, N.C.Civ.Prac. & Proc. (2nd Ed.), §
12-6. Without it the court lacks any power to proceed;
therefore, a defense based upon this lack cannot be
waived and may be asserted at any time. Id. Accordingly,
the appellants may raise the issue of jurisdiction over the
matter for the first time on appeal although they initially
failed to raise the issue before the trial court. See Real
Estate Trust v. Debnam, 299 N.C. 510, 263 S.E.2d 595
(1980); Bache Halsey Stuart, Inc. v. Hunsucker, 38

'.VFSTt AW ® 2018 Thomson Reuters. No claim to original U.3. GovernmeiT VVon^

Matter of Green, 67 N.C.App. 501 (1984)
3ufslf2dl93

N.C.App. 414, 248 S.E.2d 567 (1978) (an appellate court
may raise the question on its own motion).
171 We conclude that the trial court lacked jurisdiction over
the subject matter because the petition was not duly
signed and verified as required by law. G.S. 7A-544; G.S.
7 A—5 61 (b). Therefore, the order of the trial court must be
vacated and the case dismissed.

Vacate and dismiss.

VAUGHN, C.J., and WELLS, J., concur.
All Citations'
67 N.C.App. 501, 313 S.E.2d 193

*505 181191 We deem it unnecessary to discuss appellants’
other assignments of error in view of our decision on the
question ofjurisdiction.1
Footnotes
1

-

Although we vacate and dismiss the order entered on other grounds, one particularly troubling feature of the order
warrants mention. Eleven out of the. twelve “Findings of Fact" begin by stating that the witness “testified under oath .... : ■
and continue to merely restate the content of that testimony. Such verbatim recitations of the testimony of each witness
do not constitute findings of fact by the trial judge, because they do not reflect a conscious choice between the
conflicting versions of the incident in question which emerged from all the evidence presented. Where, as here, the tnal
judge sits without a jury, the judge is required to find the facts specially and state separately his conclusions of law thereon and direct entry of the appropriate judgment. G.S. 1A-1, Rule 52(a). “The requirement for appropnately
detailed findings is ... not a mere formality or a rule of empty ritual; it is designed instead ‘to dispose of the^issues
raised by the pleadings and to allow the appellate courts to perform their proper function in the judicial system. Coble ■
v Coble 300 N C. 708; 268 S.E.2d 185 (1980). The purported “findings" in the order under discussion do not even
come close to resolving the disputed factual contentions of the parties, and, under ordinary circumstances would
require this Court to remand the matter to the District Court for the entry of appropriately considered and detailed
factual findings.

End of Document

S) 2018 Thomson Reuters. No claim to original U.S. Government Works.

•?, 2013 Thomson Reuters. No claim to oriainai U.S. Govsrr.tnem

EXHIBIT G
STATE ex rel HANSEN v. RIGGS

I

\

A
State ex rel. Hansen v. Rigg, 258 Minn. 388 (1960)
104 N.W.2d 553
~

an habitual offender, charge failed to state a
criminal offense and the court lacked
jurisdiction to sentence the defendant to prison.
M.S.A. §610.29.

KeyCite Yellow Flag -Negative Treatment
Distinguished by State ex rel. Lee v. Tahash, Minn., November 13,1964

258 Minn. 388
Supreme Court of Minnesota.
STATE of Minnesota ex rel. K. R. HANSEN,
Appellant,
v.
Douglas C. RIGG, Warden, Minnesota State
Prison, Respondent.

3 Cases that cite this headnote

PI

No. 37962.
July 8, i960.

Synopsis
Habeas corpus proceeding. The District Court,
Washington County, Carl W. Gustafson, J., entered order
vacating writ, and petitioner appealed. The Supreme
Court, Murphy, J., held that where defendant was charged
only with being an habitual offender, charge failed to state
a criminal offense and the court lacked jurisdiction to
sentence the defendant to prison.
Reversed with directions.

West Headnotes (4)
HI

Sentencing and Punishment
i—Offenses in Other Jurisdictions

. <1

Criminal Law
Jurisdiction of Offense
In a criminal prosecution it is necessary that the
trial court have jurisdiction of subject matter,
that is, the offense, as well as the person of the.
defendant, and jurisdiction of the subject matter
is derived from the law.
4 Cases that cite this headnote

HI

Sentencing and Punishment
-..—Sentence Enhancement Distinguished from
Separate Offense
Habitual-offender statutes do not create a
criminal offense but merely define a status
justifying a more severe penalty for commission
of designated crimes because of the prior
offenses. M.S.A. § 609.155.
3 Cases that cite this headnote

An habitual-offender sentence based on a prior
Iowa conviction for which the accused had
already been punished in Iowa was entirely
beyond the power of the Minnesota court and
was void. M.S.A. § 609.155.
**553 Syllabus by the Court.

HI '

Cases that cite this headnote

*388 1. Habitual-offender statutes do not create a criminal
offense but merely define a status justifying a more severe
penalty for commission of designated crimes because of
the prior offenses.

Sentencing and Punishment
• - Requisites and Sufficiency of Accusation

2. Where a defendant is charged only with being an
habitual offender, the charge fails to state a criminal
offense and the court lacks jurisdiction to sentence the
defendant to prison.

Where defendant was charged only with being
's 1 '• w

20 ’ * Thomson Reuters. Mo claim to ori-.ur.ai U S. Government words'

State ex rel. Hansen v. Rigg, 258 Minn. 388 (1960)
104 N.W.2d 553

Attorneys and Law Firms
K. R. Hanson, Stillwater, for appellant.
Miles Lord, Atty. Gen., Charles E. Houston, Sol. Gen., St.
Paul, for respondent.
Opinion
MURPHY, Justice.
Petitioner applied to the District Court of Washington
County for a writ of habeas *389 corpus, alleging that he
was unlawfully restrained in the state prison at Stillwater.
The district court issued its writ of habeas corpus, and the
warden of the state prison **554 filed a return stating that
the petitioner was in his custody. According to the record
the imprisonment resulted from the following
circumstances:
111 On January 18, 1956, the petitioner was charged by
complaint in the municipal court of the city of Mankato of
fraudulently issuing a worthless check. The complaint
alleged a gross misdemeanor by violation of M.S.A. s
622.04. The petitioner entered a plea of guilty to this
charge. No judgment of sentence was entered on this plea
in the municipal court. On January 25, 1956, another
information was filed in municipal court alleging that the
petitioner was an habitual offender under s 617.75,* and
he was bound over to the district court. Thereafter a new
information was filed in the district court by which it was
charged that the defendant did commit the crime of
‘Being an Habitual Offender’ in that he had within a
5-year period committed three gross misdemeanors,
including the one to which he entered a plea of guilty on
January 18, 1956. The information concluded that by
reason of the facts alleged the defendant was an habitual
offender. He entered a plea of guilty to this information
and was sentenced to 3 years’ imprisonment in the state
penitentiary.* This sentence was suspended and he was
placed on probation, but on November 20, 1958, the stay
was vacated on the recommendation of the State Board of
Parole and Probation. He was then committed to the state
prison where he has since been confined.
Petitioner appeals from an order vacating the writ.
I2! 1J1 PI *390 1-2. We cannot agree with the argument of
the state that the court had jurisdiction to impose a
sentence on the charge to which the petitioner entered a
plea of guilty. In a criminal prosecution it is necessary

that the trial court have jurisdiction of the subject
matter-that is, the offense-as well as the person of the
defendant. Jurisdiction of the subject matter is derived
from the law.3 Habitualcriminal statutes do not create a
crime. They merely increase punishment for a crime
where the defendant has been convicted of prior offenses.
The defendant here was not charged with the substantive
offense of obtaining money by a worthless check. He was
charged with an asserted violation of a statute which does
not create a criminal offense. Section 617.75, subds. 1 and
2, provide:
‘Every person who shall hereafter be guilty of * * * any
misdemeanor or gross misdemeanor involving moral
turpitude, who within the previous period of five years
shall have been twice convicted in this state of one or
more of the offenses hereinbefore named, shall be guilty
of being an habitual offender.
‘Such person shall be punished for such third offense, * *
* if a man above the age of 30 years, by imprisonment in
the state prison at Stillwater, for a term of not exceeding
three years.’
A sentence imposed on an habitual offender is, as the
statute provides, imposed **555 as a penalty for the third
offense. In State v. Zywicki, 175 Minn. 508, 510, 221
N.W. 900, 901, we explained:
* * The information presented to
the court for the purpose of showing
prior convictions is not an indictment
or information charging the defendant
with having committed a crime. It
merely charges a prior conviction or
convictions, which if proved will
increase the sentence to be imposed,
or already imposed, for the later crime
of which defendant then stands
convicted.’

Courts are agreed that habitual-offendfer statutes merely
define a status justifying a more severe penalty for
commission of certain designated crimes because of the ■
prior offenses, and that such statutes do not in themselves
define a criminal offense. See, e.g., *391 State ex rel.
MacMillen v. Utecht, 221 Mum. 138, 21 N.W.2d 2j9;
State v. Hensley, 20 Wash.2d 95, 145 P.2d 1014;
Salisbury v. State, 80 Okl.Cr. 13, 156 P.2d 149; Davis v.
O’Grady, 137 Neb. 708, 291 N.W. 82; Goodman- v.
Kunkle, 7 Cir., 72 F.2d 334.
The defendant was charged in the district court only with
having committed the crime of ‘Being an Habitual

■'3 2013 Thomson Pouters. Mo ciaiin to ordinal IJ.S. Government Works.

State ex rel. Hansen v. Rigg, 258 Minn. 388 (1960)
104 N.W.2d 553
Offender,1 and therefore he was neither charged with nor
convicted of any crime by that court. It must follow that
the court was without jurisdiction to impose sentence in
this case.

All Citations
258 Minn. 388, 104 N.W.2d 553

Reversed with directions to reinstate the writ of habeas,
corpus and direct the warden to release the prisoner.
Footnotes
1

M.S.A. s 617.75 increases punishment for the habitual offender who has been twice convicted within a previous 5-year
!:omm,ssion of a ‘misdemeanor or gross misdemeanor involving moral turpitude,1 as opposed to s
610.29, which increases the penalty upon conviction of one who has previously been convicted of three or more
felonies.
The petitioner was also sentenced at this time to 3 years’ imprisonment for a prior conviction of a felony in 1941 by an
Iowa court. These terms were to be served consecutively. The sentence was amended on November 28 1956 to
provide that the terms be served concurrently. The district court in the present action stated, correctly that the
sentence based on a pnor conviction, for which the petitioner had already been punished in Iowa, was entirely beyond
the power of the Minnesota court and, therefore, void.
1 y

3

14 Am.Jur., Criminal Law, s 214.

End of Document

r':: :

'■*

© 2018 Thomson Reuters. No claim to original U S. Government Works..

' "'T^-on Reuters. .'-Jo cairn tc epenai U 3. Govai'nrrart v/crc'.

EXHIBIT H
Article on Pension Funds

AFSC Arizona j ReFraming Justice
WORKING TO REDUCE THE SIZE AND IMPACT OF THE PUNISHMENT SYSTEM

Arizona further
invests public
retirement in Private
Prisons
28 AUG 2017 « ( LEAVE A COMMENT )

The American Friends Service Committee has long been
opposed to Arizona’s deep financial involvement in the for-profit
private prison industry. Fundamentally, that is because we
believe that incarceration for profit is immoral. But we also know
that these corporations are profoundly mismanaged, negligent,
and do not deliver the cost savings they promise to taxpayers.
That is why we were deeply disturbed to learn that the Arizona
State Retirement System (ASRS) just increased its shares in
CoreCivic (formerly Corrections Corporation of America), the
largest for-profit prison company in the US.
During the second quarter, the ASRS "raised its position in
shares (https://baseballnewssource.com/markets/corrections-corp-of-americacxw-sh3res-bought-by-arizona-state-retirement-system/1555498.html) of

Corrections Corp. of America (N YSE:CXW) by 1.8% during the
second quarter, according to its most recent filing with the SEC.
The fund owned 49,800 shares of the real estate investment
trust's stock after buying an additional 900 shares during the
period. Arizona State Retirement System’s holdings in
Corrections Corp. of America were worth $1,373,000 at the end
of the most recent quarter.”

The ASRS is the government-run retirement system whose
membership includes employees of the State of Arizona, the
three state universities, community college districts, school
districts and charter schools, si! 15 counties, most cities and
towns, and a variety of special districts. A total of 205,162
members around the State (https://www.azasrs.gov/ccntent/factsfiguresj.
In 2017, the State of Arizona spent approximately $168,617,100
of general fund dollars on private prison contracts. As of the
latest Department of Corrections report
(http://www.azleg.gov/jibc/i7AR/adc.pdf), Arizona currently has 5
contracts that account for roughly 14% of the Department of
Corrections’ $1 billion budget.
As the state’s corrections budget has grown, it has siphoned off
genera! fund dollars from other critical agencies and programs.
Ironically, some of those who have lost the most in state funding
are the very same whose retirement is now invested in this
predatory industry. For example, the Grand Canyon Institute
(http://grandcanyoninstitute.org/arizona-spends-too-much-incarcerating-tooiittle-on-personnei-drug-treatment-transition-services-and-higher-education/)

reported that Arizona spends 60% more on prisons than on state
colleges and universities. Yet, the retirement funds for those
professors are now tied up in the corporation that arguably
benefited from the drastic reduction in state funding for higher
education.
It is also vvorth noting that two former members of the Arizona
Board of Regents were also serving on the Board of Directors of
what was then Corrections Corporation of America (now
CoreCivic). Former Arizona Senator Dennis DiConcini came
under public pressure to resign
■(https:/7www.lucs6nweekly.com/TheRange/archives/2014/05/12/deconcini-nclonger-on-private-prison-company-board-of-directors) from the Board

from immigrant rights advocates and others (including AFSC) for
his willingness to accent huge stock dividends from a
corporation that was detaining thousands of immigrants in
Arizona and elsewhere. He later resigned from the Board of
CCA.

Another former ABOR member, Anne Mariucci
{htlp://wwv*marketwatch.com/investing/stoci</CXW/insiders?pirl= 1061.7363),
is currently listed as "Independent Director” at Corrections
Coro, of America. She remains on the Board of Directors at
Corrections Corp. of America, as well as Southwest Gas Corp.,
Arizona State University Foundation, Banner Health System,
Inc., Fresh Start Women’s Foundation and The University of
Arizona Health Network. Notably, she served previously as the
Director of the Arizona State Retirement System.
CoreCivic is also the largest employer in Pinal County, where it
operates a total of 6 facilities. In addition to contracts for
incarceration of Arizona state prisoners and Mesa Jail detainees,
the company also imports prisoners from California, Vermont,
and Hawaii, as well as thousands of immigrant detainees from
ICE and the US Marshals.
The corporation is moving aggressively into other areas of
Arizona's criminal justice system, including the recent
pri vatization of the Mesa jail
{hl:i,p://www.azcentral.com/story/news/local/mesa/2017/05/23/mes3-firstari?ona-city-private-jail-corecivic/337197001/) and the acquisition of

New Beginnings Treatment Center
(ntip.//www.cca.com/investors/financial-information/quarterly-reports), Inc, a

residential reentry center in Tucson that holds a contract with
the Federal Bureau of Prisons.
A closer look at the ASRS’s holdings reveals that it is also
ii ivested in the nation’s second largest for-profit prison
corporation, GEO Group, fn fact, as of August 2, 2017, ASRS had
52,450 shares in the company-more than its recent increased
investment in CoreCivic. GEO Group also holds contracts with
the Arizona Department of Corrections for Florence West and
Phoenix West.
You can read the full list of the Arizona State Retirement
System’s investments here
{httu.oywvw.sec.gov/Archives/edgar/d3ta/1558481/G00114036i 17029773/xs
!f m

13f.. XO 1/form 13f I nfoTable.xm!).

AFSC has Song advocated for divestment from private prisons as
a strategy that, both individuals and institutions can use to help
end for-profit incarceration. The organization even has a website
that allows people to scan their investments to find out if any of
their holdings are involved in prison profiteering:
http://investigate.3fsc.org/(http://investigate.afsc.or-g/)

EXHIBIT I
Grand Jury Detail

City of Phoenix

PERFORMANCE MANAGEMENT GUIDE
Date:

Type:
status:

2013-06-20
Performance
Scheduled

Employee Name
Wennes.Joe D

Empl ID

Dept

B2076

Dept Name

Job Title

Police:Central Booking Detail

Police Officer

Overall Performance Expectations: Met
tag
Description
Serves internal and external customer needs
Contributes to team spirit
Values and respects diversity

Leams, changes and improves
Devotes effort towards achieving quality results

Met?
Met
Met
Met
Met
Met

CURRENT RATING PERIOD
Item #
1
2
3
4
5
6
7
8

9
TO

Item #

1

Duties & Goals
Demonstrates professionalism in work performance and decisions.
Practices open and effective communication.
Practices workplace and environmental safety.
Demonstrates acceptable attendance.
Complies with Departmental rules and regulations.
Provides knowledgeable and quality testimony within the Grand Jury setting.
Assists in training and orienting new members to the Grand Jury Detail.
________
Works in cooperation with the County Prosecutors, and acts as a conduit for information
between the County Attorney's Office and the Police Department on issues involving the
Grand Jury.
Dresses appropriately and professionally for Grand Jury proceedings as outlined in
Operations Order 2.9, Court Appearances.______ _________________________
Keeps your supervisor informed of issues of importance to the Police Department.

Performance;
Expectations
Met
Met
Met
Met
Met
Met
Met
Met
Met
Met

NEXT RATING PERIOD
Duties & Goals
Note : For your next rating period you will receive a new goal setting worksheet.

COMMENTS
Supervisor
Joe, congratulations on successfully completing another year of employment with the Phoenix
Police Department. For this review, which covers the period from June 2012 to the present, you
have 'Met' Overall Performance Expectations.
Joe, for the entirety of this rating period you were assigned to a
with the
Grand Jury Detail, where your principal duty was to provide hearsay testimony before a
ivlaricopa County Grand Jury on criminal cases originating from Phoenix P D. investigations.
Your performance during this past year has been outstanding. The knowledge and job skills you
have accumulated over your many years of police experience afford you the ability to provide
quality hearsay testimony in a wide variety of criminal cases. You routinely volunteered for
complex investigations, were meticulous in your preparation for your appearances before the
Grand Jury, and became the County Attorney's go to person for DUI cases. You rarely took

Completed by
Michaud,Paul Joseph
2013-06-18T 14:54:180700
Complete: Y

time off, and each day displayed a willingness to work hard and solve problems, which resulted
in outstanding productivity. Your strong work ethic was evident on 3-29-13, when, despite being
understaffed, you and two others were able to provide testimony on 22 cases, including 6 late
arriving "last day" cases. Failure to present these late cases would have resulted in dangerous
criminals being released from jail. For your effort you received a Commendation. You also
frequently volunteered to stay late when the demands of the job required it, whether it be late
testimony before the Grand Jury or waiting to ensure that there were no further questions about
the case from the jurors before they rendered a verdict. Your professionalism has been
exemplary, resulting in praise from the prosecutors assigned to the Grand Jury and various
Grand Jury panels. Finally, your overall dress and appearance was unfailingly impeccable, and
in l/Aiaoinn u/itK fhn

ii i rvov^pn ly

iiiui

DmIiaa

me i nyi icoi oiai luai uo ui mu runcc u/C|jai lll ICIII.

During this rating period you attended Ethics Training and a seminar on the new TruNarcdrug
testing system, and remained current on all AZPOST required proficiencies and training
mandates. Congratulations, Joe, on an outstanding year.______________________________

ReviewerJoe, thank you for your hard work this past year.

Tallman.Mark P

2013-06-19T12:51:230700
Complete: Y
Employee
Thank you to Sgt Michaud and Lt Tallman for all your help and support this past year. I've
enjoyed being part of theGrand Jury Detail and Phoenix Police team.
Sincerely, Joe Wennes.

2013-06-19T12:39:290700
Complete: Y

City of Phoenix

PERFORMANCE MANAGEMENT GUIDE
Date:
Type:
Status:

2014-06-20
Performance
Scheduled
Empl ID

Employee Name

Wennes.Joe D

Dept

B2076

Dept Name

Job Title

Police:Central Booking Detail

Police Officer

Overall Performance Expectations: Met
CORE CITY VALUES .
Description
Exhibits ethical behavior and decision making________
Embraces diversity in all work activities_____________
Is professional and accountable in all work assignments
Participates in and supports team endeavors
Engages in innovative thinking and problem solving
Provides responsive and consistent customer service

tRENT-RATJNG-PERI VI a'

L»i*i

■

Item #
1
2
3
4
5
6
7
8
9
10

Item #
1

Met?
Met
Met
Met
Met
Met
Met

•, *

:

Duties & Goals
Demonstrates professionalism in work performance and decisions
Practices open and effective communication.
Practices workplace and environmental safety.
Demonstrates acceptable attendance.
Complies with Departmental rules and regulations.
Provides knowledgeable and quality testimony within the Grand Jury setting._________
Assists in training and orienting new members to the Grand Jury Detail._____________
Works in cooperation with the County Prosecutors, and acts as a conduit for information
between the County Attorney's Office and the Police Department on issues involving the
Grand Jury.
Dresses appropriately and professionally for Grand Jury proceedings as outlined in
Operations Order 2.9, Court Appearances.___________________ ____________
Keeps your supervisor informed of issues of importance to the Police Department.

' Performance
Expectations
Met
Met
Met
Met
Met
Met
Met
Met

Met
Met

Duties & Goals
Note : For your next rating period you will receive a new goal setting worksheet.

COMMENTS
5 ’Y-SV
Supervisor
Joe, congratulations on successfully completing another year of employment with the Phoenix
Police Department. For this review, which covers the period from June 2013 to the present, you
have 'Met' Overall Performance Expectations.
Joe, for the entirety of this rating period you were assigned to aggj_________| with the
Grand Jury Detail, where your principal duty was to provide hearsay testimony before a
fviaricopa County Grand Jury on criminal cases originating from Phoenix P.D. investigations.
Your performance during this past year has been outstanding. You are an unquestioned leader
on the Grand Jury Detail, and your fellow squadmates frequently look to you for advice and
direction. Your knowledge of all aspects related to the Grand Jury, and your opinion, is so
valued by the County Attorney's Office that on 12-18-13 your presence was requested for a

Completed fey
Michaud,Paul Joseph
2014-06-12T09:42:590700
Complete: Y

meeting concerning our entire operation. Your input was instrumental in the formulation of new
procedures that reflected a greater cooperation between County employees and the Grand Jury
Detail, and led to a more efficient and effective overall operation. The knowledge and job skills
you have accumulated over your many years of police experience afford you the ability to
provide quality hearsay testimony in a wide variety of criminal cases. You routinely volunteered
for complex investigations, were meticulous in your preparation for your appearances before the
Grand Jury, and could always be counted on to stay late to present a case, answer every
question put forth by a grand juror, and do whatever necessary to ensure the success of your
case. The quality.of your work is best illustrated by the Commendations and other positive
feedback you received during this rating period. DCA_______ , Charging Bureau Chief for the
Grand Jury, had nothing but praise for your performance this past year, including your
willingness on 12-20-13 to present a 1st Degree Murder case that prevented the suspect from
being released from jail, possibly to flee the jurisdiction. A clerical error caused the case to be to
be pushed back to its "Last Day", meaning if the case was not presented immediately the
suspect would have to be set free. Even though this type of case is not normally appropriate for
hearsay testimony, you volunteered to take on this challenge, and successfully presented the
case to the Grand Jury. On 5-23-14 another Grand Jury DCA commended you for your
preparation and presentation of an extremely difficult case, a case that had failed presentations
on two previous occasions. Without exception your professionalism and demeanor have been
exemplary, resulting in praise from the prosecutors assigned to the Grand Jury and various
Grand Jury panels. Finally, your overall dress and appearance was unfailingly impeccable, and
in keeping with the highest standards of the Police Department.
During this rating period you successfully completed a 5 month Investigator Training course,
attended Threat Assessment and Psychopathy training, received a Commendation for no usage
of sick time,and remained current on all AZPOST required proficiencies and training mandates.
Congratulations, Joe, on an outstanding year._______________________________________
'TReyidwer
Joe, I agree with Sgt. Michaud’s assessment of your performance. You are a mature and
dedicated officer. Thank you for the good work you do.

Employee
I'm humbled and grateful to be part of the Phoenix Police Team!! A special thanks to Sgt.
Michaud and Lt. Tallman for all their help!! Joe

Tallman.Mark P
2014-06-19T12:19:300700
Complete: Y________

2014-06-19T07:42.380700
Complete: Y

City of Phoenix

PERFORMANCE MANAGEMENT GUIDE
Date:

Type:
Status:

2015-06-20
Performance
Scheduled

Employee Name

Empl ID

Dept

B2019

Wennes.Joe D

Dept Name

Job Title

Police Dept: Property Managemt

Police Officer

Overall Performance Expectations: Met
CORE CITY VALUES
Description
Exhibits ethical behavior and decision making_________
Embraces diversity in all work activities______________
Is professional and accountable in all work assignments
Participates in and supports team endeavors_________
Engages in innovative thinking and problem solving
Provides responsive and consistent customer service

TTFIn EMT-RATTNG-PE1
Item#
1
2
3
4
5
6
7
8

9

10

Item #
1
2
3
4
5
6
7
8
9
10

Met?
Met
Met
Met
Met
Met
Met

. ..

.

Duties & Goals ,
Demonstrates professionalism in work performance and decisions.
Practices open and effective communication.
Practices workplace and environmental safety. .
Demonstrates acceptable attendance.
Complies with Departmental rules and regulations.
Provides knowledgeable and quality testimony within the Grand Jury setting.__________
Assists in training and orienting new members to the Grand Jury Detail._______________
Works in cooperation with the County Prosecutors, and acts as a conduit for information
between the County Attorney's Office and the Police Department on issues involving the
Grand Jury.__________________________________________________________________
Dresses appropriately and professionally for Grand Jury proceedings as outlined in
Operations Order 2.9, Court Appearances.________________________________________
Keeps your supervisor informed of issues of importance to the Police Department.

Performance
Expectations
Met
Met
Met
Met
Met
Met
Met
Met

Met
Met

IEXT-RATfNG^PER!<
v
Duties & Goals
Demonstrates professionalism in work performance and decisions.
Practices open and effective communication.
Practices workplace and environmental safety.
Demonstrates acceptable attendance.
Complies with Departmental rules and regulations.
Provides knowledgeable and quality testimony within the Grand Jury setting._____________________________
Assists in training and orienting new members to the Grand Jury Detail._________________________________
Works in cooperation with the County Prosecutors, and acts as a conduit for information between the County
Attorney's Office and the Police Department on issues involving the Grand Jury.__________________________
Dresses appropriately and professionally for Grand Jury proceedings as outlined in Operations Order 2.9,
Court Appearances.
I Keeps your supervisor informed of issues of importance to the Police Department.

Supervisor
Joe, congratulations on successfully completing another year of employment with the Phoenix
Police Department. For this review, which covers the period from June 2014 to the present, you
have "Met" Overall Performance Expectations.

Michaud,Paul Joseph
2015-06-16T06:33:020700
Complete: Y

Joe, for the entirety of this rating period you were assigned to a_____________I with the
Grand Jury Detail, where your principal duty was to provide hearsay testimony before a
Maricopa County Grand Jury on criminal cases originating from Phoenix PD investigations.
During this past year your performance has been exemplary. You continue to be the
unquestioned leader of the GJD, with your squad mates looking to you for everything from
guidance on how to handle difficult or unusual cases to being their liaison with the Maricopa
County Attorney's Office on matters involving the grand jury. On 3-3-15 you attended a meeting
with the heads of the MCAO-Grand Jury, during which you voiced your squads’ concerns that
some inefficient practices were negatively affecting productivity, and offered ideas on how to
make the GJ process flow smoother. Your superb knowledge on the entire GJ operation allows
you to take an active approach in training new members of the GJD while tirelessly imparting
l/r^/vi/loHAfl
'OC thof
fr\ fN»v\w«/-4o «i (oliH' tonti*'■’"»riw 1-wafAro thp orpnH
J\i luvv icuUC cSi iU iCui ii iluuCo li Jell vv ul cliiwvv u iCi 11 tv-/ piuviuc uuaiuy iLdui i i\-»i
C u iC yiuiiU

jury.
Joe, your work ethic and dedication to duty are outstanding. No one presents more cases
before the grand jury than you, and the quality of your testimony, no matter the type or difficulty
of the case, was uniformly excellent. An example of your work ethic occurred on the week of
April 27-May 1, 2015, when, due to a severe GJD staffing shortage, you presented an incredible
42 cases before the Grand Jury. The effort you put forth to read and understand each report,
and provide expert testimony to each case without incident, is a testament to your
professionalism, perseverance, and positive attitude. Your dedication to duty is evident by the
numerous times this past year you stayed beyond your work hours, to present cases and remain
until all jurors questions were answered. Finally, your overall dress and appearance was
unfailingly impeccable, and in keeping with the highest standards of the Phoenix Police
Department.
Joe, your value to the Grand Jury’can best be illustrated by the lengths that Deputy County
, Charging Bureau Chief for the Grand Jury, DCA __________■ Assistant
Attorney
Charging Bureau Chief for the Grand Jury, and other DCAs assigned to the Grand Jury were
willing to go to advocate for a permanent position for you on the GJD. Memos have been
written and phone calls placed to the Police Chiefs Office in the belief that you, and the
knowledge and skills you possess, should continue to play a vital role in the Grand Jury process.
To quote DCA0g^^
<S9E anc* I wholeheartedly support having Office Wennes
permanently assigned to the squad, in our opinion, having Officer Wennes serve in this
capacity would benefit both our agencies tremendously..fUj and I have witnessed first hand
Officer Wennes1 positive influence on the program. Since his arrival there is a continuity among
the squad that did not exist...In our opinion and based on our past experience with the program
since March of 2009, Officer Wennes possesses the experience, temperament, and
professionalism to continue to make the hearsay program a success." Joe, these statements
are the ultimate proclamation of your importance to the Grand Jury process, and how your
performance has reflected positively on both the Phoenix Police Department and the Maricopa
County Attorney's Office.
During this rating period you stayed current on all AZPOST required proficiencies and training
mandates. Congratulations, Joe, on an outstanding year.
Reviewer
Joe, I agree with Sgt. Michaud's assessment of your performance. You have demonstrated an
exceptional amount of professional in your grand jury duties as noted by the County Attorney
Charging Bureau Chief. Thank you for all your efforts that reflect positively on the Phoenix
Police Department.____________________
Employee
Many thanks to Sgt. Michaud and Lt. Tallman for everything!! I'm humbled and grateful to be
part of their team!! Wishing Sgt. Michaud a long, healthy and blessed retirement!!! Joe

Tallman.Mark P
2015-06-23T11:48:300700
Complete: Y________

2015-06-17T08:12:390700
Complete: Y

City of Phoenix

PERFORMANCE MANAGEMENT GUIDE
Date:

2016-06-20

Type.

Performance
Scheduled

Status:

Employee Name

Empl ID

Wennes.Joe D

Dept

B2019

Dept Name

Job Title

Police Dept: Property Managemt

Police Officer

Overall Performance Expectations: Met
CORE CITY VALUES
Description
Exhibits ethicai behavior and decision making_________
Embraces diversity in all work activities
Is professional and accountable in all work assignments
Participates in and supports team endeavors_________ _
Engages in innovative thinking and problem solving
Provides responsive and consistent customer service

Item #
1
2
3
4
5

6
7
8

10

Met?
Met
Met
Met
Met
Met
Met

Duties & Goals
Demonstrates professionalism in work performance and decisions.
Practices open and effective communication.
Practices workplace and environmental safety.
Demonstrates acceptable attendance.
Complies with Departmental rules and regulations.
Provides knowledgeable and quality testimony within the Grand Jury setting.__________
Assists in training and orienting new members to the Grand Jury Detail._______________
Works in cooperation with the County Prosecutors, and acts as a conduit for information
between the County Attorney's Office and the Police Department on issues involving the
Grand Jury.
Dresses appropriately and professionally for Grand Jury proceedings as outlined in
Operations Order 2.9, Court Appearances.___________________________________
Keep your supervisor informed of issues of importance to the Police Department.

Performance
Expectations
Met
Met
Met
Met
Met
Met
Met
Met

Met
Met

lEX^RATINGd^ERIOD
Item#

1
2
3
4
5
6
7
8
g
10

Duties & Goals
Demonstrates professionalism in work performance and decisions.
Practices open and effective communication.
Practices workplace and environmental safety.
Demonstrates acceptable attendance.
Complies with Departmental rules and regulations.
Provides knowledgeable and quality testimony within the Grand Jury setting._____________________________
Assists in training and orienting new members to the Grand Jury Detail.____________________________ _
Works in cooperation with the County Prosecutors, and acts as a conduit for information between the County
Attorney's Office and the Police Department on issues involving the Grand Jury. _____
Dresses appropriately and professionally for Grand Jury proceedings as outlined in Operations Order 2.9,
Court Appearances.______________________________________________________________________________
Keep your supervisor informed of issues of importance to the Police Department.

HGOMMENl$TEv-‘y.v~.: ’• •: •••:! '.t .tv

Supervisor
________ _______________
-■ ______________ ____________'
This narrative was authored by Sergeant Janina Austin #6618:
Joe, I became your supervisor on February 8, 2016. During this rating period, you have
continued to distinguish yourself as the informal leader of the Grand Jury Detail (GJD),
consisting at various times of four to six officers, in total. As you have been assigned to the GJD
for more than three years, you have had the opportunity to develop excellent working
relationships with Deputy County Attorney (DCA)m|^, Charging Bureau Chief, PCAu^l
Hgjjg||, Assistant Charging Bureau Chief and many other DCAs assigned to work with Grand
Jury Detail officers. Their evaluation of your performance is consistently glowing and their
appreciation of your strong work ethic is abundantly clear.

Austin,Janina M
2016-07-09T16:55:020700
Complete: Y

Joe, you have developed the skills, knowledge and expertise to present any type of criminal
case, with or without notice. You have even been called upon in the past to present a 1st
Degree Murder case, due to an administrative error. This resulted in an indictment, based on
your hearsay testimony.
Joe, you keep the Grand Jury Squad functioning like a well-oiled machine and take
responsibility for ensuring that new officers are well oriented to their work there. You also take
ownership of the squad and attempt to work out any issues informally. When necessary, you
also let your supervisor know when a fellow employee is struggling and not able to be
successful in the GJD environment.
Joe, your consistently positive attitude and very high level of productivity make you a pleasure to
supervise. On June 16, 2016, you were commended by Court Services employees, who
regularly contact you to arrange hearsay testimony for same-day cases in which subpoenaed
officers are not able to be contacted. On every occasion, you have taken responsibility for
ensuring the needed testimony is provided, representing the Phoenix Police Department to the
best of your ability and providing critical assistance for attorneys who would otherwise have to
dismiss legitimate criminal charges. You were praised for your professionalism and courteous
attitude and exemplary customer service skills. I completely agree. Your dedication to duty is
outstanding.
I encourage you to request and attend training that is of interest to you and will help to further
your career. I look forward to working with you in the future. Thank you for all of your hard
work.
__________________________________________ __ _________________
^Reviewer"..' : —
Joe, thank you for the excellent job you do everyday. You have developed an excellent
reputation with the County Attorney's Office that reflects well on the Phoenix Police Department.

Employee
Many thanks to Sgt. Austin, Sgt. Michaud, Sgt. Baltzer, Lt. Tallman and Cmdr. Gardner for their
kind words and encouragement for another productive year. A special thank you to Assistant
Chief Renteria for our meeting to provide her with an update on the continued progress and
development of the Grand Jury Hearsay Detail with future plans of increasing stability, accuracy,
and continuity. Her sincere interest in reviewing the proposal and accepting a copy of the two
notebooks of details for future reference was very much appreciated.
I am amazed at the volume of cases that the Detail is responsible for each year. I estimate that I
have had the opportunity to present approximately a thousand cases each year, therefore I have
been personally involved with the preparation and presentation of upwards of 4000 cases since I
started. I am impressed with how the members of our squad work in tandem with the MCAO
staff to handle as many cases as possible each day. The details of each case are critical and
our presentations are essentia! in these felony cases. Fortunately, our work allows officers and
detectives to stay active in their assignments wniie we present their cases, saving the city both
time and money and allowing us to be force multipliers.
I am both humble and grateful for the opportunity to be a part of the Grand Jury Hearsay Detail.

Tallman.Mark P
2016-07-21T 12:13:410700
Complete: Y

2016-07-20T23:31:360700
Complete: Y

